NO. 20-__

In the
Supreme Court of the United States
ERNEST JOHNSON,
Petitioner,
V.

ANNE L. PRECYTHE, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEREMY S. WEIS
FEDERAL DEFENDER OFFICE
CAPITAL HABEAS UNIT
818 Grand Avenue, Ste. 300
Kansas City, MO 64106

GINGER D. ANDERS
Counsel of Record
MUNGER, T OLLES & OLSON LLP
1155 F Street NW, 7th Fl.
Washington, DC 20004
(202) 220-1100
DANE P. SHIKMAN
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Fl.
San Francisco, CA 94105

Counsel for Petitioner

i
CAPITAL CASE
QUESTIONS PRESENTED
In Bucklew v. Precythe, 139 S. Ct. 1112 (2019),
this Court held, at the summary judgment stage and
on the record in that case, that the State had a legitimate penological justification for rejecting the inmate’s proffered alternative method of execution
because that method had not previously been used to
perform an execution, and the inmate had presented
no evidence that the method had been studied or
could be carried out. The questions presented are:
1. Whether Bucklew established a categorical
rule that a State may obtain dismissal of an Eighth
Amendment method-of-execution claim by proffering
a reason for rejecting the plaintiff’s opposed alternative method of execution that is legitimate in the
abstract, regardless of whether the plaintiff has plausibly alleged that the State’s proffered reason is not
legitimate or sufficient on the facts of the case.
2. In the alternative, whether the court of appeals’ refusal to permit petitioner, after this Court’s
decision in Bucklew was issued, to amend his complaint to propose a previously-used alternative method of execution warrants summary reversal.

ii
PARTIES TO THE PROCEEDING
Petitioner Ernest Johnson was the appellant in
the court of appeals.
Respondents Anne L. Precythe, Alana Boyles, and
Stanley Payne were appellees in the court of appeals.
STATEMENT OF RELATED CASES
The following proceeding is directly related to this
case within the meaning of Rule 14.1(b)(iii):
Johnson v. Precythe, No. 17-2222 (8th Cir.).
Judgment was entered on April 1, 2020.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ......................................... i
PARTIES TO THE PROCEEDING ............................ ii
STATEMENT OF RELATED CASES ........................ ii
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
CONSTITUTIONAL PROVISION INVOLVED ......... 1
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE..................................... 4
REASONS FOR GRANTING THE PETITION ........ 11
I.

This Court should review the Eighth
Circuit’s holding that the untried nature
of a proposed alternative method of
execution is automatically a legitimate
justification for rejecting it, regardless of
the facts of the case. ........................................ 12
A.

The court of appeals’ understanding of Bucklew’s “legitimate
penological justification” standard
conflicts
with
this
Court’s
decisions applying that standard. ....... 13

B.

The court of appeals erred in
holding
that
petitioner’s
complaint must be dismissed. .............. 20

C.

The
question
presented
is
important, and this case is an
ideal vehicle. ......................................... 24

iv
TABLE OF CONTENTS
(continued)
II.

Page

In the alternative, this Court should
summarily reverse the court of appeals’
refusal to permit petitioner to amend his
complaint. ........................................................ 25
A.

Under the court of appeals’
reading, Bucklew changed the law
in two significant respects. .................. 26

B.

The court of appeals’ refusal to
permit petitioner to amend his
complaint is irreconcilable with
Bucklew. ................................................ 28

CONCLUSION .......................................................... 31
APPENDIX
Appendix A – Opinion of the United States
Court of Appeals for the Eighth Circuit
(April 1, 2020).................................................. 1a
Appendix B – Opinion of the United States
Court of Appeals for the Eighth Circuit
(August 27, 2018) ............................................ 9a
Appendix C – Order of the United States
District Court for the Western District of
Missouri (May 1, 2017) ................................. 22a

v
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Aqeel v. Seiter,
No. 90-3045, 1991 WL 2990 (6th Cir.
Jan. 15, 1991) ....................................................... 21
Aref v. Holder,
953 F. Supp. 2d 133 (D.D.C. 2013) ................ 15, 21
Arthur v. Comm’r,
840 F.3d 1268 (11th Cir. 2016) ............................ 27
Arthur v. Dunn,
137 S. Ct. 725 (2017) ................................ 11, 27, 29
Baze v. Rees,
553 U.S. 35 (2008) .........................................passim
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) .............................................. 20
Ben-Levi v. Brown,
136 S. Ct. 930 (2016) ............................................ 15
Boyd v. Warden,
856 F.3d 853 (11th Cir. 2017) .............................. 27
Bucklew v. Lombardi,
No. 14-08000, 2016 WL 6917289
(W.D. Mo. Jan. 29, 2016) ...................................... 27
Bucklew v. Precythe,
139 S. Ct. 1112 (2019) ...................................passim

vi
TABLE OF AUTHORITIES
(continued)

Page(s)

Doe I v. Nestle USA, Inc.,
766 F.3d 1013 (9th Cir. 2014) .............................. 30
Erickson v. Pardus,
551 U.S. 89 (2007) ............................................ 6, 20
Farmer v. Brennan,
511 U.S. 825 (1994) ........................................ 14, 17
Gee v. Pacheco,
627 F.3d 1178 (10th Cir. 2010) ............................ 21
Glossip v. Gross,
576 U.S. 863 (2015) ........................................ 2, 7, 8
Griffin v. Lopez,
No. 99-15932, 2000 WL 1228997 (9th
Cir. Aug. 29, 2000)................................................ 21
Hope v. Pelzer,
536 U.S. 730 (2002) ........................................ 14, 15
Overton v. Bazzetta,
539 U.S. 126 (2003) .............................................. 15
Price v. Comm’r,
920 F.3d 1317 (11th Cir. 2019) ............................ 19
Quinn v. Nix,
983 F.2d 115 (8th Cir. 1993) ................................ 15
Quintanilla v. Bryson,
730 F. App’x 738 (11th Cir. 2018) ........................ 21

vii
TABLE OF AUTHORITIES
(continued)

Page(s)

Turner v. Safley,
482 U.S. 78 (1987) .......................................... 14, 15
United States v. Haymond,
139 S. Ct. 2369 (2019) .......................................... 14
CONSTITUTIONAL PROVISIONS
U.S. Const. Amendment VIII ...................................... 1
FEDERAL STATUTES AND RULES
28 U.S.C. 1254(1) ......................................................... 1
42 U.S.C. 1983 ............................................................. 5
Fed. R. Civ. P. 8 ........................................................... 6
STATE STATUTES
Mo. Rev. Stat. 546.720(1) ............................................ 6
OTHER AUTHORITIES
Kevin M. Morrow, Execution by Nitrogen
Hypoxia: Search for Scientific
Consensus, 59 Jurimetrics J. 457
(2019) .................................................................... 23

1
Petitioner respectfully petitions this Court for a
writ of certiorari to review the judgment of the United States Court of Appeals for the Eighth Circuit in
this case.
OPINIONS BELOW
The decision of the court of appeals (App. 1a-8a) is
reported at 954 F.3d 1098. A prior decision of the
court of appeals (App. 9a-21a) is reported at 901 F.3d
973. The order of the district court (App. 22a-37a) is
unpublished.
JURISDICTION
The judgment of the court of appeals was entered
on April 1, 2020. On March 19, 2020, the Court extended the time within which to file any petition for a
writ of certiorari due on or after that date to 150 days
from the date of the lower-court judgment. The effect
of that order was to extend the deadline for filing a
petition for a writ of certiorari to and including August 31, 2020 (the Monday following Saturday, August 29, 2020). The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Eighth Amendment, U.S. Const. amend. VIII,
provides: “Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual punishments inflicted.”
INTRODUCTION
In this Eighth Amendment action, petitioner Ernest Johnson alleges that Missouri’s lethal-injection
procedure will cause him to suffer excruciatingly
painful and violent seizures during his execution.
Petitioner proposed nitrogen gas—the only nonlethal-injection method currently authorized by Mis-

2
souri law—as an available alternative method of
execution. In 2018, in a published decision, the
Eighth Circuit held that petitioner’s complaint, which
incorporated an affidavit from a medical expert and a
state study concluding that nitrogen gas would be a
humane and readily implemented method of execution, plausibly alleged the elements of an Eighth
Amendment claim under this Court’s precedents.
Glossip v. Gross, 576 U.S. 863 (2015); Baze v. Rees,
553 U.S. 35 (2008).
The State petitioned for a writ of certiorari. While
that petition was pending, this Court issued its decision in Bucklew v. Precythe, 139 S. Ct. 1112 (2019),
which reaffirmed that to survive summary judgment,
a plaintiff “must show a feasible and readily implemented alternative method of execution that would
significantly reduce a substantial risk of severe pain
and that the State has refused to adopt without a
legitimate penological reason.” Id. at 1125. Bucklew
held that, on the summary judgment record in that
case, the State had a legitimate reason for rejecting
nitrogen gas as a proposed alternative method of
execution, because the method was “untried and
untested,” and the inmate had proffered no evidence
as to how such an execution would work, or even that
it could work. Id. at 1129-1130 (citation omitted).
This Court remanded this case to the court of appeals
for further consideration in light of Bucklew.
On remand, the court of appeals held that Bucklew established a categorical rule that, because the
untried nature of a proposed method is a legitimate
reason to reject that method in the abstract, such a
proffered reason is always sufficient grounds to reject
a proposed method out of hand, regardless of the facts
of the case. Under that view, it would not matter if

3
the untried nature of the proposed method is not in
fact the State’s reason for rejecting it, or if that proffered reason is entirely insubstantial on the facts of
the case. The court of appeals’ understanding of the
“legitimate penological justification” standard thus
gives that standard a different meaning in the method-of-execution context than in every other Eighth
Amendment and prison-conditions context in which it
applies. This Court’s review is warranted to resolve
the resulting conflict between the decision below and
this Court’s method-of-execution and prisonconditions precedents.
Moreover, the court of appeals’ understanding of
the “legitimate penological justification” standard
would logically apply to any facially legitimate penological justification—such as witness sensibilities or
logistical concerns—for refusing to adopt any proposed alternative method of execution. The decision
below thus enables States to foreclose a method-ofexecution challenge at the outset simply by proffering
a reason for refusing the proposed alternative that is
legitimate in the abstract—no matter what alternative the plaintiff proposes, and no matter whether the
State’s proffered penological justification would withstand scrutiny on the facts of the case. This Court’s
review is therefore warranted to ensure that the
“legitimate penological justification” standard is not
applied in a way that renders meaningless the Eighth
Amendment right against a cruel and unusual execution.
In the alternative, this Court should summarily
reverse the court of appeals’ refusal to permit petitioner to amend his complaint to propose an alternative method (firing squad) that has been used before
and that Members of this Court have suggested is a

4
humane and readily available alternative. If Bucklew
announced a new categorical rule that a plaintiff may
not propose a method that has not been used before,
petitioner was entitled to amend his complaint.
Leave to amend is liberally granted to plaintiffs in
every other context when the law has changed, and
the court of appeals had no sound basis for denying
petitioner the benefit of that principle. Quite the
contrary. Bucklew emphasized that plaintiffs who,
like petitioner, have satisfied their burden of establishing (or pleading) a substantial risk of severe harm
will be able to propose an available alternative. And
Bucklew expanded the universe of permissible alternatives by abrogating lower-court decisions holding
that the proposed method must be authorized by
state law. The court of appeals’ refusal to permit
petitioner to amend his complaint to propose a different method cannot be squared with Bucklew’s expectation that plaintiffs will be able to propose an available alternative. This Court should reverse.
STATEMENT OF THE CASE
1. Petitioner was convicted of three counts of first
degree murder in Missouri state court and sentenced
to death. App. 10a. He was subsequently diagnosed
with an atypical brain tumor, and underwent a craniotomy surgical procedure to treat the tumor in 2008.
App. 24a. As a result of that surgery, petitioner now
has a hole in the top of his skull and is missing approximately 15-20% of his brain tissue. Ibid.; Second
Am. Complaint ¶ 16, No. 15-cv-4237, (W.D. Mo. filed
Oct. 21, 2016) (Compl.), ECF No. 41. The craniotomy
procedure also resulted in scarring and a brain defect
that causes petitioner to suffer from a seizure disorder. App. 24a. Since his surgery, petitioner has been

5
suffering violent, uncontrollable, and severely painful
seizures. Ibid.
Missouri’s single-drug lethal injection protocol
employs the barbiturate pentobarbital, which is part
of a class of drugs known to produce seizures, even in
individuals who do not have an underlying seizure
disorder. Compl. ¶¶ 25-26. Because petitioner’s
seizure threshold is substantially lower than that of
the general population due to his pre-existing seizure
disorder, the use of pentobarbital on him is highly
likely to trigger severely painful and prolonged seizures and convulsions. Id. ¶ 34; App. 14a-15a (describing medical expert affidavit). Pentobarbital also
has the tendency to exacerbate pain, so the seizures
that petitioner would likely experience may be even
more painful than they otherwise would be absent
the pentobarbital. Compl. ¶ 51. Petitioner therefore
alleges that there is a substantial and unjustifiable
risk that the administration of pentobarbital will
cause violent and uncontrollable seizures that will be
severely painful. Id. ¶¶ 62-63; App. 15a.
2. a. Petitioner filed this suit under 42 U.S.C.
1983, alleging that executing him pursuant to Missouri’s lethal injection protocol would violate the
Eighth Amendment. App. 10a. The district court
dismissed petitioner’s complaint without prejudice.
Ibid. This Court stayed petitioner’s execution pending disposition of his appeal. App. 11a. The court of
appeals remanded to the district court to permit petitioner to amend his complaint. 815 F.3d 451, 452
(8th Cir. 2016) (No. 15-3420).
In October 2016, petitioner filed a second amended complaint, to which he attached an affidavit from
a board-certified anesthesiologist, opining that petitioner would likely suffer a mid-execution seizure

6
caused, in part, by the pentobarbital injection.
Amended Affidavit of Joel Zivot, ¶ 14, No. 15-cv-4237
(W.D. Mo. filed Oct. 21, 2016), ECF No. 41-2. Petitioner also alleged that execution by nitrogen gas is a
feasible, readily implemented alternative method
that would significantly reduce the risk of pain he
otherwise faced. Compl. ¶ 59. Petitioner proposed
nitrogen gas because Missouri law authorized execution by lethal gas in addition to execution by lethal
injection. Mo. Rev. Stat. 546.720(1).
In support of his allegation that nitrogen gas was
an available alternative, petitioner alleged that execution by lethal gas was authorized by state law, that
nitrogen gas as an execution method has been studied and approved for use by (at the time) one other
State, that nitrogen gas was readily obtainable and
easily administered, and that using nitrogen gas
would not require Missouri to construct any additional facilities. Compl. ¶ 58. Petitioner also attached to
his complaint a study on nitrogen gas performed at
the request of Oklahoma legislators, which concluded
that nitrogen gas executions would be humane and
“simple to administer,” and that the necessary materials could be obtained without difficulty. Oklahoma
Study at 2, No. 15-cv-4237, (W.D. Mo. filed Oct. 21,
2016), ECF No. 41-3.
In May 2017, the district court dismissed the second amended complaint. App. 22a-37a.
b. In August 2018, the court of appeals reversed.
App. 9a-21a. Under the “notice pleading” standard
set forth in Federal Rule of Civil Procedure 8, the
court explained, a complaint “need only ‘give the
defendant fair notice of what the * * * claim is and
the grounds upon which it rests.’” App. 13a (quoting
Erickson v. Pardus, 551 U.S. 89, 93 (2007) (per curi-

7
am)). The Court further explained that to plead an
Eighth Amendment method-of-execution claim, a
plaintiff must allege that (1) the challenged procedure entails a “substantial risk of serious harm,” and
(2) there exists a “feasible” and “readily implemented” alternative method that “in fact significantly
reduce[s] a substantial risk of severe pain.” App. 13a14a (quoting Glossip v. Gross, 576 U.S. 863, 878
(2015)).
With respect to the first element, the court held
that petitioner adequately alleged that, if the State
administered lethal injection according to its standard protocol, petitioner would suffer severe pain as a
result of a pentobarbital-induced seizure. App. 14a15a. With respect to the second element, the court
explained that petitioner had set forth sufficient
allegations to establish that nitrogen gas was a feasible and readily implemented alternative. The court
recounted petitioner’s allegations:
“(1) ‘execution by lethal gas is already authorized
by Missouri statute,’ * * * (2) ‘the tools necessary
to perform nitrogen-induced hypoxia are easily
acquired in the open market,’ (3) nitrogen gas ‘is
readily available through multiple sources in the
United States’ and ‘can be obtained without the
need for a license,’ (4) nitrogen gas can be administered by ‘the use of a hood, a mask or some other
type of medically enclosed device to be placed over
the mouth or head of the inmate,’ and (5) ‘the use
of a nitrogen gas method of execution would not
require a gas chamber or the construction of [a]
particular type of facility’ and ‘could be administered in the same room or facility now utilized by
the Department of Corrections for lethal injection.’”

8
App. 16a (quoting petitioner’s complaint). The court
also observed that petitioner had attached an Oklahoma study to his complaint, and that the “ultimate
conclusion” of the study was that “execution by nitrogen-induced hypoxia would be ‘simple to administer.’”
App. 18a. Finally, the court held that petitioner had
sufficiently alleged “that the alternative method
would significantly reduce a substantial risk of severe
pain * * * in his particular circumstances,” because
he alleged, with medical-expert support, that nitrogen gas would not trigger the painful seizures that
were a likely consequence of the pentobarbital injection. App. 18a-19a. The court of appeals therefore
remanded for further proceedings in the district
court.
c. In January 2019, the State sought this Court’s
review of the Eighth Circuit’s decision. No. 18-852.
3. While the State’s petition for a writ of certiorari was pending, this Court decided Bucklew v. Precythe, 139 S. Ct. 1112 (2019).
Bucklew held that an inmate who challenged Missouri’s lethal injection protocol as applied to him, on
the ground that the execution procedure would inflict
unconstitutional suffering as a result of his rare medical condition, had not proffered sufficient evidence to
survive summary judgment. The Court first held
that a plaintiff who raises an as-applied challenge to
a method of execution must satisfy the legal standard
set forth in Baze v. Rees, 553 U.S. 35 (2008) (plurality
opinion) and Glossip v. Gross, 576 U.S. 863 (2015).
Bucklew, 139 S. Ct. at 1125. Thus, in addition to
demonstrating that the challenged procedure gives
rise to a substantial risk of severe pain, the plaintiff
must identify “a feasible and readily implemented
alternative method of execution the State refused to

9
adopt without a legitimate reason, even though it
would significantly reduce a substantial risk of severe
pain.” Id. at 1129.
As relevant here, the Court held that the inmate
had not established “genuine issue of material fact
warranting a trial,” id. at 1129, with respect to his
assertion that nitrogen gas would be a feasible and
readily implemented alternative method of execution.
The Court explained that the inmate had not satisfied his burden at summary judgment because he had
“presented no evidence on essential questions like
how nitrogen gas should be administered.” Ibid. The
Court also stated that “relatedly, the State had a
‘legitimate’ reason for declining to switch from its
current method of execution as a matter of law” because nitrogen gas is “untried and untested.” Id. at
1129-1130 (quoting Baze, 552 U.S. at 41). The Court
explained that nitrogen gas had not previously been
used to carry out an execution, and that the inmate’s
evidence indicated only that further study was needed to determine whether nitrogen could be used.
Ibid.
The Court also emphasized, however, that the inmate’s “burden” of proposing an available alternative
should not be “overstated.” 139 S. Ct. at 1128. The
Court clarified that “[a]n inmate seeking to identify
an alternative method of execution is not limited to
choosing among those presently authorized by a particular State’s law.” Ibid. That holding altered the
law applicable to method-of-execution claims, as
several courts had held that any proposed method
had to be currently authorized under state law. See
id. at 1136 (Kavanaugh, J.) (the question whether
“the alternative method of execution need not be

10
authorized under current state law” had been “uncertain before today’s decision”).
4. This Court granted the State’s pending petition
for a writ of certiorari in this case, vacated the Eighth
Circuit’s decision in Johnson’s favor, and remanded
for further consideration in light of Bucklew. 139 S.
Ct. 1546.
5. In April 2020, the court of appeals issued a decision on remand. The court held that Bucklew required departing from its earlier decision, and that
the district court’s dismissal of petitioner’s complaint
should be affirmed. App. 1a-8a.
The court of appeals first restated its earlier conclusion that petitioner had adequately alleged that
Missouri’s challenged procedure made it certain or
very likely that petitioner would suffer severe pain
during his execution. App. 3a-4a.
The court of appeals next held that Bucklew required the court to reverse its earlier conclusion that
petitioner had adequately alleged that nitrogen hypoxia was an available alternative method of execution. App. 4a-6a. In the court’s view, Bucklew “ruled
categorically that ‘choosing not to be the first to experiment with a new method of execution is a legitimate reason to reject it’” in all cases. App. 6a (emphasis added). Because petitioner “does not allege
that any State has carried out an execution by use of
nitrogen gas,” the court concluded, Bucklew required
dismissing the complaint. The court thus did not
consider whether the untried nature of nitrogen gas
was a legitimate penological justification for rejecting
the alternative on the alleged facts of petitioner’s
case.

11
The court of appeals also rejected petitioner’s contention that if the court concluded that Bucklew categorically foreclosed nitrogen gas as a proposed alternative, petitioner should be permitted to amend his
complaint to propose a method that has been used
before. The court rejected petitioner’s argument that
he had alleged nitrogen gas because it was authorized
by Missouri law, and that because Bucklew established that the proposed alternative need not be authorized by state law, petitioner should be permitted
to propose the firing squad. App. 7a-8a. The court
did so despite the fact that the firing squad has been
used in executions, and Members of this Court have
suggested that it is a humane and available alternative. Bucklew, 139 S. Ct. at 1136 (opinion of Kavanaugh, J.); Arthur v. Dunn, 137 S. Ct. 725, 733-734
(2017) (Sotomayor, J., dissenting from denial of certiorari).
REASONS FOR GRANTING THE PETITION
The court of appeals wrongly construed Bucklew
to impose a categorical rule that the untried nature of
a proposed alternative method of execution is always
a legitimate penological justification to reject that
method, regardless of the facts of the case. The court
of appeals’ decision gives the “legitimate penological
justification” standard a different meaning in the
method-of-execution context than it has in every
other Eighth Amendment and constitutional context
in which it applies. Taken to its logical conclusion,
moreover, the court of appeals’ reading of Bucklew
suggests that States may foreclose any method-ofexecution claim at the outset, simply by proffering
any facially legitimate reason for rejecting the plaintiff’s proposed alternative—whether or not that reason would withstand scrutiny on the facts of the case.

12
The court of appeals’ reading of Bucklew thus threatens to render illusory the Eighth Amendment right
against cruel and unusual punishment. This Court’s
review is warranted.
In the alternative, this Court should summarily
reverse the court of appeals’ refusal to permit petitioner to amend his complaint to propose an alternative method that has been used before. If the court of
appeals correctly construed Bucklew to announce a
new categorical rule that a plaintiff may not propose
a previously unused method, petitioner was entitled
to avail himself of the leave to amend that is liberally
granted to plaintiffs when the law has changed.
Indeed, Bucklew clarified that the proposed method
need not be authorized by state law. And the Court
emphasized that plaintiffs who, like petitioner, sufficiently establish a severe risk of harm will be able to
propose an available alternative method. The court
of appeals’ refusal to permit petitioner to amend his
complaint to take advantage of Bucklew’s expansion
of the universe of available alternatives is therefore
irreconcilable with Bucklew itself.
I. This Court should review the Eighth Circuit’s holding that the untried nature of a
proposed alternative method of execution is
automatically a legitimate justification for
rejecting it, regardless of the facts of the
case.
Bucklew held, at the summary judgment stage,
that the State had a “legitimate penological reason”
for rejecting the alternative of nitrogen-induced hypoxia because nitrogen was “untried and untested,”
in that it had not been used in an execution or shown
to be safe and effective in studies. 139 S. Ct. at 1130
(citation omitted). In the decision below, the court of

13
appeals concluded that Bucklew established a “categorical[]” rule that the untried nature of an alternative method of execution is a “legitimate penological
reason” to reject the method, and that such a reason
“foreclose[s] the claim as a matter of law at the pleading stage.” App. 5a, 6a. That conclusion misapprehends the nature of the “legitimate penological reason” standard and conflicts with precedent of this
Court and other courts of appeals applying that
standard in analogous prison-conditions litigation.
The court of appeals also disregarded the important
distinctions between Bucklew’s summary-judgment
context and the motion-to-dismiss context of this
case.
A. The court of appeals’ understanding of
Bucklew’s “legitimate penological justification” standard conflicts with this
Court’s decisions applying that standard.
Bucklew’s holding that a State may reject a proposed alternative method of execution if the State has
a “legitimate penological reason” for doing so draws
from this Court’s precedents concerning constitutional challenges to prison conditions. In that context, it
is well established that the “legitimate penological
reason” standard has both a categorical aspect—the
proffered reason must be legitimate in the abstract—
and a factual aspect—the proffered reason must be
the prison’s actual reason, and it must be a sufficient
justification in the circumstances of the case.
1. This Court first discussed the “legitimate penological justification” element as applied to method-ofexecution claims in Baze. There, the Court stated
that if a State refuses to adopt an available alternative that alleviates a substantial risk of severe pain
“without a legitimate penological justification for

14
adhering to its current method of execution, then a
State’s refusal to change its method can be viewed as
‘cruel and unusual’ under the Eighth Amendment.”
553 U.S. at 52. The Court drew the “legitimate penological justification” standard from other contexts in
which prisoners challenge punishments or prison
policies on Eighth Amendment or other constitutional
grounds. Baze thus relied on Farmer v. Brennan, 511
U.S. 825, 833 (1994), which held that in the prisonconditions context, the State has acted reasonably,
not wantonly or cruelly, if it has a legitimate penological justification for imposing the burden in question.
Baze, 553 U.S. at 52; accord Hope v. Pelzer, 536 U.S.
730, 737-738 (2002) (corporal punishment violates the
Eighth Amendment as “wanton” and “gratuitous” if it
is imposed “without penological justification” (citations omitted)); United States v. Haymond, 139 S. Ct.
2369, 2383 (2019); Turner v. Safley, 482 U.S. 78, 89
(1987) (examining legitimate penological interests
that assertedly justified prison regulations alleged to
violate First Amendment and due process rights).
This Court’s decisions establish that the “legitimate penological justification” requirement has both
categorical and fact-specific elements. A proffered
justification must be legitimate in the abstract—for
instance, prison security is a legitimate justification
in the prison-conditions context, Turner, 482 U.S. at
97, just as preserving dignity and witness sensibilities is a legitimate reason in the method-of-execution
context, Baze, 553 U.S. at 57. But even when a justification is legitimate as a categorical matter, that is
not in itself sufficient. The proffered justification
must also be legitimate on the facts of the case—that
is, the justification must actually be present in the
circumstances of the case, and it must be sufficient to
justify the prison’s conduct. In Hope, for instance,

15
prison officials asserted that their use of the hitching
post to punish the plaintiff was justified by safety
concerns.
That justification was unquestionably
legitimate in the abstract. But the Court then examined whether safety concerns justified the plaintiff’s
treatment on the facts of the case—and concluded
that they did not, and that as a result, the punishment violated the Eighth Amendment. 536 U.S. at
737-738.
This Court and other courts of appeals have repeatedly examined both the categorical and factspecific aspects of a prison’s proffered legitimate
penological justification. In some cases, the proffered
justification, though facially legitimate, may not be
sufficiently related to the burden imposed on the
prisoner. See, e.g., Overton v. Bazzetta, 539 U.S. 126,
133 (2003) (acknowledging proffered security concerns as legitimate, but examining factual record to
ascertain whether restrictions on child visitation
were related to that interest); Turner, 482 U.S. at 97
(facially legitimate security concerns were not reasonably related to restriction); Ben-Levi v. Brown,
136 S. Ct. 930, 935-936 (2016) (Alito, J., dissenting
from denial certiorari) (stating that even if one did
not “question the importance of these interests,” including security concerns, “respondent’s invocation of
these interests is insufficient to justify” the policies at
issue). In other cases, the proffered legitimate reason
may be pretextual. See, e.g., Quinn v. Nix, 983 F.2d
115, 118 (8th Cir. 1993) (“[T]he district court made a
factual finding that this legitimate penological interest was not the motivation for the officials’ actions.”);
Aref v. Holder, 953 F. Supp. 2d 133, 146 (D.D.C.
2013) (“The fact that Smith offered legitimate penological reasons for Jayyousi’s continued placement in

16
the CMU does not settle the issue, since Jayyousi has
alleged that the reasons were pretextual.”).
These decisions reflect two principles. First, a defendant may not defeat an Eighth Amendment or
other constitutional claim simply by pointing to a
justification that is legitimate in the abstract. Second, although the abstract legitimacy of a particular
penological justification is a legal question, the sufficiency of that justification to support inhibiting a
prisoner’s constitutional rights in a particular case is
a factual question.
2. Against this backdrop, the court of appeals
erred in interpreting Bucklew to establish a “categorical” rule that when a method is untried, a State
automatically has an actual, legitimate penological
reason to reject it, regardless of the facts of the case.
Bucklew explained, in the context of a summary
judgment record, that the untried nature of nitrogen
was a “legitimate” reason to reject the alternative “as
a matter of law.” 139 S. Ct. at 1130. There is no
question after Bucklew that the untried nature of a
proposed alternative is facially legitimate reason to
reject that alternative. But Bucklew should be understood in light of the prison-conditions jurisprudence that undergirds Baze’s Eighth Amendment
framework. The lesson of those cases is that a legitimate basis in the abstract is not enough: a facially
legitimate reason may not hold up when tested in the
actual circumstances of the case at hand.
Although Bucklew did not expressly distinguish
between the question whether the untried nature of
nitrogen is legitimate in the abstract, and the question whether that facially legitimate reason was legitimate and sufficient to justify rejecting nitrogen in
the circumstances of the Bucklew case, the Court did

17
not need to do so. The Court had already explained
in the immediately preceding paragraph that the
inmate had failed to proffer any evidence that nitrogen could actually be safely administered. Id. at
1129. In those circumstances, there could be no question that the untried nature of nitrogen was a factually sufficient reason to reject the method on the record
in Bucklew’s case. The Court’s statement that the
State had a legitimate justification to reject nitrogen
“as a matter of law,” id. at 1130, is thus best understood to refer to the inmate’s failure to raise a genuine issue of material fact with respect to that justification.
The court of appeals’ understanding of Bucklew as
establishing an automatic, categorical rule divorces
the “legitimate penological justification” standard in
the method-of-execution context from the larger
Eighth Amendment and prison-conditions context in
which it originated. Baze and Bucklew did not suggest that the “legitimate penological reason” aspect of
the analysis would somehow apply differently in the
method-of-execution context. To the contrary, the
Court expressly drew the method-of-execution standard, including the legitimate justification element,
from its Eighth Amendment prison-conditions jurisprudence. Baze, 553 U.S. at 52 (citing Farmer, 511
U.S. at 884). And those decisions recognize that a
facially legitimate justification may nonetheless be
insufficient (or pretextual) on the facts of a particular
case. See pp. 14-15, supra.
Indeed, under the court of appeals’ sweeping interpretation of Bucklew, it would not matter if, for
instance, the plaintiff demonstrated that the State’s
reliance on the novelty of a method was pretextual.
Nor would it matter if the novelty of the method was

18
an entirely insubstantial reason in the circumstances—if, for example, the existing method posed a significant risk of excruciating pain, incontrovertible
scientific evidence demonstrated that the alternative
method would be effective and humane, and the State
had already conducted research into the alternative.
In that circumstance, the State’s preference not to
alter its method of execution would hardly be a “justification,” Baze, 553 U.S. at 52, in any ordinary sense
of that word, for inflicting an avoidable, substantial
risk of severe pain. The fact that the novelty of the
proposed method would be a facially legitimate reason to reject the method in other circumstances not
presented would not change that conclusion. After
all, the question is not simply whether a legitimate
reason exists in the abstract, but whether the State
actually “possessed a legitimate reason” for refusing
the alternative protocol. Bucklew, 139 S. Ct. at 1128
(emphasis added).
The court of appeals thus misconstrued Bucklew
in holding that the untried nature of a proposed alternative method of execution is a per se legitimate
penological justification for rejecting the alternative
in all cases, regardless of the circumstances of the
case. Furthermore, that categorical interpretation
conflicts with Baze and this Court’s other decisions
applying the legitimate penological justification
standard.
3. Under the correct understanding of the “legitimate penological justification” standard, evaluating
the existence of a legitimate penological justification
for rejecting a proposed alternative method requires
resolving factual questions.
The question is whether the untried nature of a
proposed method—a facially legitimate penological

19
reason to reject a proposed method—justifies rejecting the alternative on the facts of this case. As Bucklew explained, the “legitimate penological justification” inquiry helps answer the ultimate question
whether the State “has unreasonably refused to alter
its method of execution to avoid a risk of unnecessary
pain.” 139 S. Ct. at 1125 (emphasis added). Evaluating whether the State’s proffered reasons justify rejecting an alternative method therefore requires examining the totality of the circumstances, including
the gravity of the risk that the alternative method
would avoid. Ibid.; Baze, 553 U.S. at 57-58 & n.5
(upholding the State’s justification for continuing to
use a paralytic drug to preserve the dignity of the
procedure because that interest “outweighed” the
“insignificant” risk of suffering caused by the paralytic).
In addition, Bucklew indicates that the degree of
the proposed method’s novelty is relevant. Bucklew
quoted Baze’s statement that a method is “untried
and untested” where it has neither been used in executions nor been the subject of a study showing that
it would be as effective and humane as the current
method. 139 S. Ct. at 1130 (citing Baze, 553 U.S. at
41, 57). Thus, whether a method has been used in an
execution is not the sole relevant fact; courts may
take into account the quality and quantity of information available about a proposed method. Cf. Price
v. Comm’r, 920 F.3d 1317, 1327 (11th Cir. 2019) (rejecting State’s contention that it could refuse to adopt
nitrogen as “new,” in view of state legislature’s recent
enactment of nitrogen as an available method).

20
B. The court of appeals erred in holding that
petitioner’s complaint must be dismissed.
The court of appeals erred in dismissing petitioner’s complaint on the sole ground that petitioner’s
proposed alternative, nitrogen gas, is untried.
1. Significantly, this case, unlike Bucklew, is still
at the pleading stage. In Bucklew, the inmate’s burden at summary judgment, after “extensive discovery,” was to demonstrate that a reasonable factfinder
could find in his favor at trial. 139 S. Ct. at 1129;
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 554 (2007).
Here, by contrast, petitioner must simply allege facts
that, taken as true, make unlawful conduct “plausible.” Twombly, 550 U.S. at 554-556; id. at 555 (purpose of the complaint is to give defendant “fair notice
of what the claim is and the grounds upon which it
rests”) (internal alterations and citation omitted);
Erickson v. Pardus, 551 U.S. 89, 93 (2007).
In evaluating the sufficiency of petitioner’s complaint with respect to the “legitimate penological
justification” element, therefore, the court of appeals
should have evaluated whether the complaint’s allegations, together with judicially noticeable materials,
give rise to a plausible inference that the State’s
proffered legitimate penological reason—that nitrogen gas is untried—may be insufficient on the facts of
this case.
That is how courts of appeals uniformly have
evaluated the existence of a “legitimate penological
justification” at the pleading stage in the context of
alleged Eighth Amendment or other constitutional
violations. A defendant’s mere assertion of an abstract justification is not dispositive of a claim at the
pleading stage; rather, the question is whether the
complaint plausibly suggests that the proffered justi-

21
fication is insufficient or pretextual in the circumstances. See, e.g., Gee v. Pacheco, 627 F.3d 1178,
1187-1188 (10th Cir. 2010) (plaintiff plausibly alleged
that facially legitimate penological reasons were not
implicated by prison’s withholding of plaintiff’s mail);
Quintanilla v. Bryson, 730 F. App’x 738, 747 (11th
Cir. 2018) (complaint’s allegations raised inference
that legitimate penological justification of security
concerns did not actually justify plaintiff’s solitary
confinement); Griffin v. Lopez, No. 99-15932, 2000
WL 1228997 (9th Cir. Aug. 29, 2000); Aqeel v. Seiter,
No. 90-3045, 1991 WL 2990, at *1 (6th Cir. Jan. 15,
1991) (holding that the district court erred in dismissing an inmate’s free exercise claim at the pleading
stage because it “did not have before it a development
of facts about security concerns upon which defendants’ conduct may have been warranted”); Aref, 953
F. Supp. 2d at 146.
2. The allegations in petitioner’s complaint easily
raise a plausible inference that the untried nature of
nitrogen gas would not be a legitimate reason to reject nitrogen in this case.
Petitioner alleges that he has a seizure condition,
and that lethal injection using pentobarbital therefore will increase the likelihood of seizures that will
be excruciating to him and easily visible to witnesses.
App. 3a-4a. The court of appeals held that petitioner’s allegations were sufficient to raise a plausible
inference that such seizures would actually occur and
that they rose to the level of a substantial risk of
severe harm. Ibid. The court further held that petitioner plausibly alleged that nitrogen gas would reduce that risk. App. 4a. Unlike in Bucklew, then,
where the inmate failed to proffer evidence that nitrogen gas would reduce a substantial likelihood of

22
severe pain caused by pentobarbital, petitioner has
satisfied his burden with respect to the first element
of the Eighth Amendment claim at this stage of the
litigation. Petitioner’s allegations therefore need only
plausibly suggest that the untried nature of nitrogen
is not sufficient to overcome the grave risk that petitioner allegedly faces from pentobarbital.
Petitioner’s allegations raise a plausible inference
that the State lacks a legitimate justification for
refusing to switch to nitrogen because using nitrogen
on petitioner would further the State’s own asserted
interest in lowering the risk of severe seizures during
the execution. The court of appeals should have taken judicial notice of Missouri’s representations to this
Court that it has an interest in “avoid[ing] a method
that causes symptoms that could be misperceived as
signs of consciousness or distress,” including “seizurelike behavior.” Brief of Respondents at 42, Bucklew,
139 S. Ct. 1112 (emphasis added) (internal quotation
marks omitted).
This case is therefore materially distinct from
Bucklew. Here, the “untried” nature of nitrogen is at
best one of two competing state interests implicated
on the facts of this case. This Court has repeatedly
recognized that protecting the sensibility of witnesses
to executions is a legitimate state interest, Baze, 553
U.S. at 57-58, and here petitioner has plausibly alleged that the using State’s existing method will not
only cause petitioner excruciating pain, but that it is
irreconcilable with the State’s acknowledged interest
in protecting the witnesses. The existence of that
countervailing interest raises a plausible inference
that the untried nature of nitrogen is not a sufficient
justification for rejecting the method in this case.

23
Moreover, petitioner has alleged that substantial
research has been done on nitrogen gas, identifying
evidence not in the record in Bucklew. An Oklahoma
study incorporated in the complaint (and not in the
Bucklew record) found that nitrogen gas would be
humane, safe for witnesses, and easy to administer.
See Oklahoma Study, No. 15-cv-4237, ECF No. 41-3.
Petitioner also presented to the court of appeals a
recent publication (not available when petitioner filed
his complaint or even when this Court decided Bucklew) that “review[ed] dozens of medical and scientific
articles on the effects of nitrogen” and “concluded
that it is a viable method of execution.” Kevin M.
Morrow, Execution by Nitrogen Hypoxia: Search for
Scientific Consensus, 59 Jurimetrics J. 457, 458
(2019). “The copious scientific evidence available
suggests that breathing nitrogen gas quickly and
painlessly leads to unconsciousness and death.” Id.
at 485. Indeed, the article concludes, “[n]itrogen gas
is cheap and widely available,” and it is “unlikely to
be embargoed by suppliers that oppose capital punishment.” Id. at 485. For those reasons, “[s]witching
to nitrogen gas as the preferred method of execution
is the foreseeable choice” for states wanting to implement the most humane and practical method of
execution. Ibid. Thus, while Bucklew held that the
State had a legitimate reason to reject nitrogen in
light of the paucity of the published literature on the
efficacy and humaneness of nitrogen hypoxia at the
time, 139 S. Ct. at 1130, petitioner has plausibly
alleged that nitrogen hypoxia’s safety and efficacy are
not speculative or unstudied, even though nitrogen
has not yet been used in an execution.

24
C. The question presented is important, and
this case is an ideal vehicle.
1. The question presented is of overriding importance to death-sentenced inmates who intend to
challenge their execution procedures. Under the
court of appeals’ understanding of Bucklew, the abstract legitimacy of a State’s proffered reason for
rejecting an alternative method (whether it is that
the method is untried, or some other reason) will
always be dispositive of an Eighth Amendment challenge to a method of execution—regardless of whether the proffered reason withstands scrutiny on the
facts of the case. It would not matter, for instance, if
the plaintiff established that the existing method
would cause him excruciating pain and an alternative
would be feasible and readily implemented. The
State could defeat the claim simply by proffering a
reason for rejecting the alternative that is legitimate
in the abstract.
For every proposed alternative method of execution,
moreover, a State will doubtless be able to proffer a
reason for rejecting it that could be considered facially legitimate—whether it is the sensibilities of the
witnesses, the preferences of those who must carry
out the execution, or the prison’s relative lack of familiarity with method. Taken to its logical conclusion, therefore, the court of appeals’ reading of Bucklew hands the States a blank check to foreclose any
method-of-execution claim at the outset—no matter
what alternative method the plaintiff proposes. The
court of appeals’ reading of Bucklew thus threatens to
render the Eighth Amendment right illusory.
Under the court of appeals’ view, moreover, the
State’s burden of proffering a legitimate penological
justification will be far lower—and different in kind—

25
than in every other context, including Eighth
Amendment challenges to other prison conditions.
But the Baze Court drew that element of the methodof-execution claim from its existing Eighth Amendment jurisprudence. There is no sound reason to give
the element different content in different Eighth
Amendment contexts.
This Court should therefore grant certiorari in order to clarify that Bucklew did not silently effect a
fundamental shift in the Eighth Amendment framework governing method-of-execution claims.
2. This case is an ideal vehicle to clarify the scope
and application of Bucklew’s legitimate-reason holding. The court of appeals affirmed the dismissal of
petitioner’s complaint based entirely on its erroneous
reading of Bucklew’s legitimate-reason holding.
When petitioner’s appeal was initially before the
Eighth Circuit, the court held that he had adequately
pleaded all elements of an Eighth Amendment method-of-execution claim. App. 13a-21a. On remand
after Bucklew, the court of appeals did not revisit
that conclusion, except to the extent that the court
concluded that Bucklew had “superseded” its conclusion as to the existence of a legitimate reason for
rejecting nitrogen gas. App. 5a (expressly limiting its
reconsideration to the “second element” of petitioner’s
claim). Accordingly, the scope and application of
Bucklew’s legitimate-reason holding is independently
dispositive of petitioner’s case.
II. In the alternative, this Court should summarily reverse the court of appeals’ refusal
to permit petitioner to amend his complaint.
If this Court concludes that the court of appeals
correctly understood Bucklew to announce a new rule
that the untried nature of a proposed alternative

26
method automatically forecloses a plaintiff’s methodof-execution claim, this Court should summarily
reverse the Eighth Circuit’s refusal to permit petitioner to amend his complaint to propose a method
that has been used before. That refusal contravenes
this Court’s statement that “we see little likelihood
that an inmate facing a serious risk of pain”—as
petitioner has sufficiently alleged here—“will be unable to identify an available alternative.” Bucklew,
139 S. Ct. at 1128-1129; see id. at 1136 (Kavanaugh,
J., concurring). The Court based that statement on
its clarification that a plaintiff may propose an alternative method of execution regardless of whether it is
authorized by state law. Yet the court of appeals
refused to allow petitioner to avail himself of that
clarification. This Court should reverse.
A. Under the court of appeals’ reading,
Bucklew changed the law in two significant respects.
1. The Eighth Circuit understood Bucklew to announce a “categorical[]” rule that the untried nature
of a proposed method is a legitimate reason for rejecting it in all cases. To state a claim under that reading, a plaintiff must propose an alternative method of
execution that has previously been used. If that understanding is correct, then Bucklew effected a significant change in the legal requirements for pleading
method-of-execution claims. Although Baze stated
that the petitioner had not demonstrated that the
traditional three-drug protocol posed an “objectively
intolerable risk” compared to the proposed singledrug protocol when no State had adopted the singledrug protocol, Baze cannot be read to suggest that the
untried nature of the single-drug protocol, on its own,
categorically barred the inmate’s claim. 553 U.S. at

27
57. If that is the law, then it is an innovation created
by Bucklew itself.
The Eighth Circuit’s pre-Bucklew decision in this
case confirms that conclusion. There, the court of
appeals held that the untried nature of nitrogen “did
not foreclose [petitioner’s] claim as a matter of law at
the pleading stage.” App. 5a; id. at 17a-18a. That
decision was consistent with then-prevailing law; to
petitioner’s knowledge, no appellate court had applied Baze and Glossip to require dismissal of a complaint on the sole ground that the proposed alternative had not previously been used.
2. At the same time, Bucklew also broadened the
universe of potential alternative methods in an important respect. The Court clarified that “[a]n inmate
seeking to identify an alternative method of execution
is not limited to choosing among those presently authorized by a particular State’s law.” 139 S. Ct. at
1128. That holding also changed the law applicable
to method-of-execution claims. Id. at 1136 (Kavanaugh, J.) (the question whether “the alternative
method of execution need not be authorized under
current state law” had been “uncertain before today’s
decision”). Before Bucklew, the courts to consider the
issue had held or strongly suggested that any proposed method had to be authorized by state law. See,
e.g., Boyd v. Warden, 856 F.3d 853, 868 (11th Cir.
2017); Bucklew v. Lombardi, No. 14-08000, 2016 WL
6917289, at *3 (W.D. Mo. Jan. 29, 2016); Arthur v.
Comm’r, 840 F.3d 1268, 1320 (11th Cir. 2016); Arthur
v. Dunn, 137 S. Ct. 725, 729 (2017) (Sotomayor, J.,
dissenting from denial of certiorari). That is unsurprising; there is intuitive force to the argument that a
proposed method cannot be available and “readily

28
implemented” if legislation would be required to enable its use.
Bucklew further emphasized that because the
plaintiff “is not limited to choosing among those
[methods] presently authorized by a particular
State’s law,” the burden of proposing an alternative
method is not insurmountable—that is, there is “little
likelihood that an inmate facing a serious risk of pain
will be unable to identify an available alternative.”
139 S. Ct. at 1128-1129. Justice Kavanaugh viewed
that point as important enough to write a separate
opinion to “underscore” it, asserting that because “all
nine Justices today agree” that state-law authorization is not necessary, “an inmate who contends that a
particular method of execution is very likely to cause
him severe pain should ordinarily be able to plead
some alternative method of execution that would
significantly reduce the risk of severe pain.” Id. at
1136.
B. The court of appeals’ refusal to permit petitioner to amend his complaint is irreconcilable with Bucklew.
In holding that petitioner’s complaint must be dismissed, the court of appeals enforced its understanding that Bucklew announced a new categorical rule
that a proposed method must have been used before.
Yet at the same time, the court refused to allow petitioner to benefit from Bucklew’s clarification that the
proposed method need not be authorized by state law.
That refusal cannot be squared with Bucklew’s
statement that a plaintiff who faces a serious risk of
severe pain should generally be able to identify an
available alternative method of execution. 139 S. Ct.
at 1128-1129; id. at 1136 (Kavanaugh, J., concurring).

29
1. At the time petitioner filed his complaint—
before this Court’s decision in Bucklew—the weight of
authority held that a plaintiff could plead a proposed
method that had not been used before, but that any
proposed method had to be authorized under state
law. Petitioner therefore proposed nitrogen gas because it was authorized by Missouri law, and thus
“available” under pre-Bucklew law.
2. Petitioner therefore sought to amend his complaint in light of Bucklew by proposing firing squad
as an available alternative method. The firing squad
meets Bucklew’s new previous-use standard (as the
court of appeals understood it), and firing squad also
falls within Bucklew’s clarification that state-law
authorization is unnecessary. Indeed, Missouri itself
has suggested that firing squad “would be such an
available alternative.” Id. at 1136 (Kavanaugh, J.)
(citing Bucklew Tr. Oral Arg. 63-64). Members of this
Court also have stated that firing squad may be a
readily available and humane method of execution.
Ibid.; Arthur, 137 S. Ct. at 733-734 (Sotomayor, J.,
dissenting from denial of certiorari) (“In addition to
being near instant, death by shooting may also be
comparatively painless. And historically, the firing
squad has yielded significantly fewer botched executions.”) (citation omitted).
The Eighth Circuit refused to permit amendment,
however, on the ground that Bucklew did not constitute an “intervening change in law.” App. 7a. But
under the Eighth Circuit’s own reasoning, Bucklew
unquestionably changed the law unfavorably to petitioner, by requiring the court of appeals to reverse its
earlier conclusion that petitioner’s nitrogen allegation
sufficed to state a claim. That unfavorable change in
the governing law alone warranted leave to amend

30
under the well-established rule that amendment
should be liberally permitted, particularly when necessary to accommodate an intervening change in law.
See, e.g., Doe I v. Nestle USA, Inc., 766 F.3d 1013,
1028 (9th Cir. 2014) (“It is common practice to allow
plaintiffs to amend their pleadings to accommodate
changes in the law.”).
Even apart from that, the Eighth Circuit’s refusal
to permit petitioner to benefit from Bucklew’s clarification concerning state-authorization is contrary to
this Court’s expectation that plaintiffs who establish
a substantial risk of severe pain will be able to proffer
an available alternative method. 139 S. Ct. at 1128;
id. at 1136 (Kavanaugh, J., concurring). Petitioner
sought to do just that—having satisfied his burden at
the pleading stage of plausibly alleging the existence
of a substantial risk of severe pain—by amending his
complaint to propose the firing squad. The Eighth
Circuit did not suggest that firing squad was categorically unavailable, or that amendment would otherwise be futile. Under these circumstances, petitioner
should have been permitted to amend his complaint
to propose an alternative that accords with Bucklew.

31
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted. Alternatively, the petition for a writ of certiorari should be granted, and the
court of appeals’ refusal to permit petitioner to
amend his complaint should be reversed.
Respectfully submitted,
JEREMY S. WEIS
FEDERAL DEFENDER OFFICE
CAPITAL HABEAS UNIT
818 Grand Avenue, Ste. 300
Kansas City, MO 64106

GINGER D. ANDERS
Counsel of Record
MUNGER, T OLLES & OLSON LLP
1155 F Street NW, 7th Fl.
Washington, DC 20004
(202) 220-1100
DANE P. SHIKMAN
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Fl.
San Francisco, CA 94105

August 28, 2020

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 17-2222
ERNEST LEE JOHNSON,
Plaintiff Appellant,
v.
ANNE L. PRECYTHE; ALANA BOYLES;
STANLEY PAYNE,
Defendants Appellees.
Submitted: September 24, 2019
Filed: April 1, 2020
Before:
SMITH,
Chief
Judge,
COLLOTON, Circuit Judges.

BEAM

and

OPINION
COLLOTON, Circuit Judge.
This case is on remand from the Supreme Court
for further consideration in light of Bucklew v.
Precythe, ––– U.S. ––––, 139 S. Ct. 1112, 203 L.Ed.2d
521 (2019). Appellant Ernest Johnson is a Missouri
prisoner under a sentence of death. He sued state
officials to challenge the constitutionality of
Missouri’s method of execution as applied to him. The
district court 1 granted the State’s motion to dismiss
for failure to state a claim, but we ruled in a previous
decision, Johnson v. Precythe, 901 F.3d 973 (8th Cir.
2018), that Johnson adequately pleaded a claim
under the Eighth Amendment as interpreted in
The Honorable Greg Kays, Chief Judge, United States District
Court for the Western District of Missouri.
1

2a
Glossip v. Gross, ––– U.S. ––––, 135 S. Ct. 2726, 192
L.Ed.2d 761 (2015), and Baze v. Rees, 553 U.S. 35,
128 S.Ct. 1520, 170 L.Ed.2d 420 (2008). We now
conclude in light of the Supreme Court’s latest
explication in Bucklew that the district court’s
judgment should be affirmed.
Bucklew confirmed this court’s view that the test
for challenges to lethal injection protocols announced
in Baze and Glossip governs as-applied challenges
like Johnson’s. 139 S. Ct. at 1126-29. Therefore, to
prove a claim under the Eighth Amendment, a
prisoner must prove two elements. First, he must
show that the State’s method of execution “presents a
risk that is ‘sure or very likely to cause serious illness
and needless suffering,’ and give rise to ‘sufficiently
imminent dangers.’” Glossip, 135 S. Ct. at 2737
(quoting Baze, 553 U.S. at 50, 128 S.Ct. 1520). The
risk must be “a ‘substantial risk of serious harm,’ an
‘objectively intolerable risk of harm’ that prevents
prison officials from pleading that they were
‘subjectively blameless for purposes of the Eighth
Amendment.’” Id. (quoting Baze, 553 U.S. at 50, 128
S.Ct. 1520). Second, “a prisoner must show a feasible
and readily implemented alternative method of
execution that would significantly reduce a
substantial risk of severe pain and that the State has
refused to adopt without a legitimate penological
reason.” Bucklew, 139 S. Ct. at 1125.
As we explained in our first opinion, to survive a
motion to dismiss, “a complaint must contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft
v. Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937, 173
L.Ed.2d 868 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167

3a
L.Ed.2d 929 (2007)). A claim is plausible on its face
where “the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged,” id.,
and “raise[s] a right to relief above the speculative
level.” Twombly, 550 U.S. at 555, 127 S.Ct. 1955. A
pleading must offer more than “‘labels and
conclusions’ or ‘a formulaic recitation of the elements
of a cause of action’” to state a plausible claim for
relief. Iqbal, 556 U.S. at 678, 129 S.Ct. 1937 (quoting
Twombly, 550 U.S. at 555, 127 S.Ct. 1955).
At the same time, however, the rules of procedure
continue to allow notice pleading through “a short
and plain statement of the claim showing that the
pleader is entitled to relief.” Erickson v. Pardus, 551
U.S. 89, 93, 127 S.Ct. 2197, 167 L.Ed.2d 1081 (2007)
(per curiam) (quoting Fed. R. Civ. P. 8(a)(2)). “Specific
facts are not necessary; the statement need only ‘give
the defendant fair notice of what the ... claim is and
the grounds upon which it rests.’” Id. (quoting
Twombly, 550 U.S. at 555, 127 S.Ct. 1955). We
assume in our analysis that the factual allegations in
the complaint are true. Twombly, 550 U.S. at 556,
127 S.Ct. 1955.
In our previous decision, we concluded that
Johnson adequately pleaded both elements of a claim
under the Eighth Amendment. As to the first
element, his second amended complaint alleges that
he suffers from a seizure disorder, and that “there is
a substantial and unjustifiable risk that the lethal
injection drugs will trigger violent and uncontrollable
seizures that are extremely painful and will lead to
an ineffective and excruciating execution.” Relying on
a supporting affidavit from a medical expert, Johnson
asserts that “a substantial risk of serious harm will

4a
occur during his execution as a result of a violent
seizure that is induced by pentobarbital,” one of the
drugs used under the protocol. The expert predicts “a
violent seizure that is induced by Pentobarbital
injection,” opines that a seizure “would occur” during
Johnson’s execution, and states that such seizures
are “severely painful.” We concluded that for
purposes of notice pleading under Rule 8, Johnson
raised a plausible allegation that the State’s method
of execution will cause severe pain. Whether Johnson
can prove the claim through admissible evidence, we
said, is a different matter to be addressed at a later
stage of the proceedings. 901 F.3d at 978.
On the second element, we concluded that
Johnson adequately alleged that nitrogen-induced
hypoxia was a feasible and readily implemented
alternative that would significantly reduce a
substantial risk of severe pain. We cited Johnson’s
allegations that nitrogen gas is readily available on
the open market, could be introduced through a
“medically enclosed device to be placed over the
mouth or head of the inmate,” and would not require
construction of a new facility. Under the notice
pleading regime of the federal rules, we concluded,
Johnson’s complaint need not set forth a detailed
technical protocol for the administration of nitrogen
gas to state a claim. Johnson also alleges that
nitrogen hypoxia would ameliorate the risk of severe
pain allegedly caused by pentobarbital, because “the
use of lethal gas would not trigger the uncontrollable
seizures and convulsions.” We thus determined that
Johnson sufficiently alleged the second element,
although whether he could prove that element was
again a different matter to be addressed at a later
stage of the proceedings. 901 F.3d at 979-80.

5a
We now conclude that the intervening decision in
Bucklew requires a different conclusion on the second
element of Johnson’s claim, because nitrogen-induced
hypoxia is an “entirely new method” of execution that
has “‘never been used to carry out an execution’” and
has “‘no track record of successful use.’” Bucklew, 139
S. Ct. at 1130 (quoting McGehee v. Hutchinson, 854
F.3d 488, 493 (8th Cir. 2017) (en banc) (per curiam)).
In our first opinion, we understood Glossip and Baze
to mean that the sufficiency of a proposed alternative
method under the second element turned on whether
the prisoner could prove that the particular method
was feasible and readily implemented, and would
significantly reduce a substantial risk of severe pain.
See Glossip, 135 S. Ct. at 2737 (quoting Baze, 553
U.S. at 52, 128 S.Ct. 1520). This was essentially the
State’s position on the first go-round too, for it argued
that Johnson could not show as a factual matter that
the untested method of nitrogen hypoxia would
significantly reduce a substantial risk of severe pain.
That a method was new could make it more difficult
for the prisoner to meet his burden, we thought, see
McGehee, 854 F.3d at 493, but did not foreclose the
claim as a matter of law at the pleading stage.
Bucklew superseded that reasoning. The Court
explained that the question under the second element
is not only whether there is a feasible and readily
implemented alternative method of execution that
would significantly reduce a substantial risk of severe
pain. The prisoner also must show that the
alternative method is one “that the State has refused
to adopt without a legitimate penological reason.” 139
S. Ct. at 1125. The Court then concluded that an
“independent” reason why Bucklew’s claim failed was
that he “sought the adoption of an entirely new

6a
method,” namely, nitrogen hypoxia. Id. at 1129-30.
The Court ruled categorically that “choosing not to be
the first to experiment with a new method of
execution is a legitimate reason to reject it,” and
explained that the Eighth Amendment “does not
compel a State to adopt ‘untried and untested’ (and
thus unusual in the constitutional sense) methods of
execution.” Id. at 1130 (quoting Baze, 553 U.S. at 41,
128 S.Ct. 1520).
We conclude that this aspect of Bucklew forecloses
Johnson’s claim. Johnson’s proposed alternative
method of execution is nitrogen-induced hypoxia, the
same method proposed by Bucklew. The Court ruled
that the method’s novelty was a “legitimate” reason
for the State to decline to switch from its current
method of execution. Id. at 1129. Bucklew’s claim
failed for that reason alone, “independent” of whether
nitrogen hypoxia was a feasible and readily
implemented method that would significantly reduce
a substantial risk of severe pain. Id. Although
Johnson’s complaint was dismissed at the pleading
stage, rather than on a motion for summary
judgment, the procedural posture does not
distinguish Bucklew on this point. Johnson does not
allege that any State has carried out an execution by
use of nitrogen gas; he asserts only that the State of
Oklahoma has authorized nitrogen-induced hypoxia
as a lawful method. Johnson’s claim thus falls
squarely within the alternative holding of Bucklew
that the Eighth Amendment does not require a State
to adopt an untried and untested method of
execution.
Johnson argues that we should not consider the
novelty of his proposed method as a legitimate
penological justification, because the State did not

7a
move to dismiss the complaint on this ground. We
cannot accept that contention. In Bucklew itself, the
Supreme Court affirmed the dismissal of the
prisoner’s complaint on the ground that nitrogen
hypoxia was not an adequate alternative, even
though the State, in the district court and the court of
appeals, “did not dispute for purposes of that
litigation that nitrogen-induced hypoxia is a feasible
and readily implemented alternative method of
execution.” Johnson, 901 F.3d at 979; see Bucklew v.
Precythe, 883 F.3d 1087, 1094 (8th Cir. 2018);
Bucklew v. Lombardi, No. 14-8000-CV-W-BP, slip op.
at 9 (W.D. Mo. June 15, 2017). We therefore conclude
that the judgment in this case likewise may be
affirmed on any ground supported by the record.
Johnson last argues that we should remand the
case so that he may amend his second amended
complaint in light of Bucklew. He suggests that it was
unsettled before Bucklew whether a prisoner was
limited to pleading alternative methods of execution
that were authorized by state law. With Bucklew
having explained that there is no such limitation, 139
S. Ct. at 1128, he asks for another chance to plead an
alternative method. We are not convinced that
Bucklew constitutes an intervening change in law
that warrants granting Johnson a third opportunity
to amend. Neither the Supreme Court nor this court
ever said that the universe of available alternatives
was limited by state law. When we first addressed
the point, after Johnson filed his latest amended
complaint, we said the opposite. McGehee, 854 F.3d at
493. Johnson filed three complaints in the district
court and had ample opportunity to allege any
alternative method that he wished to pursue.
Especially given Bucklew’s emphasis that “[t]he

8a
proper role of courts is to ensure that
method-of-execution challenges to lawfully issued
sentences are resolved fairly and expeditiously,” 139
S. Ct. at 1134, we conclude that the case should be
closed.
For these reasons, the judgment of the district
court is affirmed.

9a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 17-2222
ERNEST LEE JOHNSON,
Plaintiff-Appellant,
v.
ANNE L. PRECYTHE; ALANA BOYLES;
STANLEY PAYNE *,
Defendants-Appellees.
Submitted: May 16, 2018
Filed: August 27, 2018
Rehearing and Rehearing En Banc Denied
October 2, 2018 ∗∗
Before: SMITH, Chief Judge, BEAM and
COLLOTON, Circuit Judges.
OPINION
COLLOTON, Circuit Judge.
Ernest Johnson, a prisoner sentenced to death in
Missouri, appeals the dismissal of his action
challenging the constitutionality of the State’s
method of execution as applied to him. The district
court dismissed Johnson’s second amended complaint
for failure to state a claim. We conclude that Johnson
pleaded a plausible claim for relief under the Eighth
Appellees Precythe, Boyles, and Payne are automatically
substituted for their predecessors under Federal Rule of
Appellate Procedure 43(c)(2).
∗∗
Judge Benton did not participate in the consideration or
decision of this matter.
*

10a
Amendment, so we reverse and remand for further
proceedings.
I.
Johnson was convicted of three counts of
first-degree murder in Missouri state court and
sentenced to death. See State v. Johnson, 244 S.W.3d
144, 149 (Mo. 2008). He filed this action against
Missouri officials in October 2015, approximately two
weeks before a scheduled execution on November 3,
2015. Johnson alleged that the State’s method of
execution—lethal
injection
with
pentobarbital—violates the Eighth Amendment’s
proscription on cruel and unusual punishment,
because there is “a substantial and unjustifiable risk”
that a pentobarbital injection will “trigger severe and
uncontrollable seizures and convulsions due to his
brain defect and unique medical condition.”
The district court granted the State’s motion to
dismiss the complaint for failure to state a claim. See
Fed. R. Civ. P. 12(b)(6). Applying the Eighth
Amendment standard from Glossip v. Gross, ––– U.S.
––––, 135 S.Ct. 2726, 2737, 192 L.Ed.2d 761 (2015),
the court concluded that Johnson had not identified a
feasible, readily implementable alternative method of
execution that would significantly reduce a
substantial risk of severe pain. The court dismissed
the complaint without prejudice, stating that Johnson
was free to amend his complaint to remedy its
deficiencies. Due to Johnson’s imminent execution
date, however, the court stated that it was certifying
the dismissal order for interlocutory appeal under
Federal Rule of Civil Procedure 54(b).
Johnson moved this court to stay his execution
pending appeal. This court denied a stay after

11a
concluding that Johnson failed to demonstrate a
significant possibility of success on either element of
his Eighth Amendment claim. Johnson v. Lombardi,
809 F.3d 388 (8th Cir. 2015) (per curiam). The
Supreme Court, however, granted a stay pending
appeal in the Eighth Circuit. Johnson v. Lombardi,
––– U.S. ––––, 136 S.Ct. 443, 193 L.Ed.2d 344 (2015)
(per curiam). The Court observed that a supporting
affidavit by a medical expert stated that “[a]s a result
of Mr. Johnson’s brain tumor, brain defect, and brain
scar, a substantial risk of serious harm will occur
during his execution as a result of a violent seizure
that may be induced by [the] Pentobarbital injection.”
Id. at 443 (alterations in original).
As we observed in Bucklew v. Lombardi, 783 F.3d
1120 (8th Cir. 2015) (en banc), “[t]he Court’s decision
to grant a stay pending appeal reflected its
determination that [the movant] had shown ‘a
significant possibility of success on the merits’ of his
appeal from the district court’s dismissal of his
complaint.” Id. at 1123-24 (quoting Hill v.
McDonough, 547 U.S. 573, 584, 126 S.Ct. 2096, 165
L.Ed.2d 44 (2006)). In this case, however, we
subsequently dismissed Johnson’s appeal for lack of
jurisdiction, and did not consider the merits of his
complaint at that time. Johnson v. Lombardi, 815
F.3d 451 (8th Cir. 2016). We noted that the State had
not established a new execution date, and that
Johnson was thus “free to move for leave to amend
his complaint without the pressure of a scheduled
execution.” Id. at 452.
Back in the district court, Johnson amended his
complaint, but the court again dismissed it without
prejudice. This time, the court reasoned that
Johnson’s complaint failed to plead facts that

12a
established the likelihood that pentobarbital would
cause him to have a mid-execution seizure. The court
allowed that it would give Johnson one more
opportunity to file an adequately pleaded complaint.
Johnson then filed a second amended complaint.
As an exhibit, Johnson attached an affidavit from
anesthesiologist Dr. Joel Zivot, who opined about the
likelihood that Johnson would suffer a painful seizure
if executed by means of pentobarbital. Johnson also
attached an Oklahoma study concluding that
nitrogen-induced hypoxia, an alternative to lethal
injection, would be a humane method of execution.
The district court granted the State’s motion to
dismiss the latest complaint. The court reasoned that
Johnson failed to plead adequately two elements of
an Eighth Amendment claim—namely, that
pentobarbital was sure or very likely to cause him to
suffer severe pain, and that nitrogen-induced hypoxia
was a feasible and readily implemented alternative
method of execution that would significantly reduce
that risk. Johnson appeals, and we review the district
court’s decision de novo. Zink v. Lombardi, 783 F.3d
1089, 1098 (8th Cir. 2015) (en banc) (per curiam).
II.
To survive a motion to dismiss, “a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937,
173 L.Ed.2d 868 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007)). A claim is plausible on its face
where “the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged,” id.,

13a
and “raise[s] a right to relief above the speculative
level.” Twombly, 550 U.S. at 555, 127 S.Ct. 1955. A
pleading must offer more than “‘labels and
conclusions’ or ‘a formulaic recitation of the elements
of a cause of action’” to state a plausible claim for
relief. Iqbal, 556 U.S. at 678, 129 S.Ct. 1937 (quoting
Twombly, 550 U.S. at 555, 127 S.Ct. 1955).
At the same time, however, the rules of procedure
continue to allow notice pleading through “a short
and plain statement of the claim showing that the
pleader is entitled to relief.” Erickson v. Pardus, 551
U.S. 89, 93, 127 S.Ct. 2197, 167 L.Ed.2d 1081 (2007)
(per curiam) (quoting Fed. R. Civ. P. 8(a)(2)). “Specific
facts are not necessary; the statement need only ‘give
the defendant fair notice of what the ... claim is and
the grounds upon which it rests.’” Id. (alteration in
original) (quoting Twombly, 550 U.S. at 555, 127
S.Ct. 1955). We assume in our analysis that the
factual allegations in the complaint are true.
Twombly, 550 U.S. at 556, 127 S.Ct. 1955.
To prove a claim challenging a method of
execution under the Eighth Amendment, a prisoner
must first “establish that the method presents a risk
that is ‘sure or very likely to cause serious illness and
needless suffering,’ and give rise to ‘sufficiently
imminent dangers.’” Glossip, 135 S.Ct. at 2737
(quoting Baze v. Rees, 553 U.S. 35, 50, 128 S.Ct. 1520,
170 L.Ed.2d 420 (2008) (plurality opinion)). The risk
must be “a ‘substantial risk of serious harm,’ an
‘objectively intolerable risk of harm’ that prevents
prison officials from pleading that they were
‘subjectively blameless for purposes of the Eighth
Amendment.’” Id. (quoting Baze, 553 U.S. at 50, 128
S.Ct. 1520). Second, the prisoner must “identify an
alternative that is ‘feasible, readily implemented, and

14a
in fact significantly reduce[s] a substantial risk of
severe pain.’” Id. (alteration in original) (quoting
Baze, 553 U.S. at 52, 128 S.Ct. 1520). A plaintiff
cannot satisfy this element “merely by showing a
slightly or marginally safer alternative.” Id. (quoting
Baze, 553 U.S. at 51, 128 S.Ct. 1520).
On the first element, Johnson alleged that he was
diagnosed with an “atypical parasagittal meningioma
brain tumor.” A portion of the tumor was removed
during a craniotomy procedure in August 2008, but
another part remains in Johnson’s brain. The surgery
also resulted in “scarring tissue” in Johnson’s brain
and a “significant brain defect.” Johnson pleaded that
“[t]he brain defect and the scarring tissue that
resulted from the craniotomy procedure were not
known until an MRI procedure was conducted in
April 2011.” As a result of his “brain defect, scarring,
and tumor,” Johnson allegedly has a seizure disorder
and has suffered seizures.
After detailing Missouri’s lethal injection protocol,
Johnson asserted that “there is a substantial and
unjustifiable risk that the lethal injection drugs will
trigger violent and uncontrollable seizures that are
extremely painful and will lead to an ineffective and
excruciating execution.” Relying on the attached
affidavit of Dr. Zivot, the complaint asserts that “a
substantial risk of serious harm will occur during his
execution as a result of a violent seizure that is
induced by pentobarbital.”
Dr. Zivot’s supporting affidavit states as follows:
“As a result of Mr. Johnson’s brain tumor, brain
defect, and brain scar, a substantial risk of serious
harm will occur during his execution as a result of a
violent seizure that is induced by Pentobarbital

15a
injection. Generalized seizures, such as the one that
would occur in Mr. Johnson, are severely painful.”
This is essentially the same allegation that the
Supreme Court cited in support of its decision in 2015
to stay Johnson’s execution pending appeal. 136 S.Ct.
at 443. The affidavit also explains that Methohexital,
“a Barbiturate and close cousin of Pentobarbital,” is
known to induce seizures in persons without
pre-existing seizure disorders, and avers that the
introduction of barbiturates into the body of a person
with a pre-existing seizure disorder is more likely to
produce seizures.
We think these allegations are sufficient to meet
the first element of an Eighth Amendment claim at
the pleading stage. Dr. Zivot, as a medical expert,
predicts “a violent seizure that is induced by
Pentobarbital injection,” opines that a seizure “would
occur” during Johnson’s execution, and states that
such seizures are “severely painful.” To be sure, “the
tenet that a court must accept as true all of the
allegations contained in a complaint is inapplicable to
legal conclusions.” Iqbal, 556 U.S. at 678, 129 S.Ct.
1937. But Johnson’s complaint and Zivot’s attached
affidavit include factual allegations that a seizure
will occur when the State injects pentobarbital and
that such a seizure causes severe pain. These
allegations are not legal conclusions but statements
of fact, and more detailed factual allegations are not
required under Rule 12. Insofar as Zivot reasoned by
analogy from the effects of a “close cousin” in the
barbiturate family, the reliability of his conclusion is
a matter to be resolved after the presentation of
evidence. For purposes of notice pleading, Johnson
has included a plausible allegation that the State’s
method of execution will cause severe pain. See

16a
Glossip, 135 S.Ct. at 2737. Whether Johnson can
prove the claim through Dr. Zivot’s testimony or other
evidence is a different matter to be addressed at a
later stage of the proceedings.
To prove the second element of an Eighth
Amendment claim, Johnson must show an
alternative method of execution “that is ‘feasible,
readily implemented, and in fact significantly
reduce[s] a substantial risk of severe pain.’” Id.
(alteration in original) (quoting Baze, 553 U.S. at 52,
128 S.Ct. 1520). Johnson alleged that execution by
lethal
gas—specifically,
“nitrogen-induced
hypoxia”—is such an alternative.
Johnson pleaded at greater length as follows: (1)
“execution by lethal gas is already authorized by
Missouri statute,” see Mo. Rev. Stat. § 546.720.1, (2)
“the tools necessary to perform nitrogen-induced
hypoxia are easily acquired in the open market,” (3)
nitrogen gas “is readily available through multiple
sources in the United States” and “can be obtained
without the need for a license,” (4) nitrogen gas can
be administered by “the use of a hood, a mask or
some other type of medically enclosed device to be
placed over the mouth or head of the inmate,” and (5)
“the use of a nitrogen gas method of execution would
not require a gas chamber or the construction of [a]
particular type of facility” and “could be administered
in the same room or facility now utilized by the
Department of Corrections for lethal injection.”
Johnson further alleged that the use of lethal gas
would “significantly reduce the substantial and
unjustifiable risk of severe pain” resulting from a
pentobarbital injection, because “the use of lethal gas
would not trigger the uncontrollable seizures and
convulsions.” He attached to his complaint an

17a
Oklahoma study that found nitrogen-induced hypoxia
to be “a humane method to carry out a death
sentence.”
In the recent case of Bucklew v. Precythe, 883 F.3d
1087 (8th Cir.), cert. granted, ––– U.S. ––––, 138 S.Ct.
1706, 200 L.Ed.2d 948 (2018), the State did not
dispute for purposes of that litigation that
nitrogen-induced hypoxia is a feasible and readily
implemented alternative method of execution. Id. at
1094;
see
Bucklew
v.
Lombardi,
No.
14-8000-CV-W-BP, slip op. at 9 (W.D. Mo. June 15,
2017). But in this case, the State does contend that
Johnson failed to plead that nitrogen-induced
hypoxia is a readily implemented method of
execution. According to the State, Johnson’s
complaint does not include required factual
information “that explains how Missouri could take
nitrogen gas from a tank and administer it to an
inmate in a way that produces a rapid and painless
death.” As summarized above, however, Johnson
alleged that nitrogen gas is readily available on the
open market, could be introduced through a
“medically enclosed device to be placed over the
mouth or head of the inmate,” and would not require
construction of a new facility. Under the notice
pleading regime of the federal rules, this is sufficient.
Johnson need not set forth a detailed technical
protocol for the administration of nitrogen gas to
state a claim.
The district court concluded that the Oklahoma
report attached to Johnson’s complaint “actually
indicates nitrogen induced hypoxia is not feasible or
capable of being readily implemented for use in state
executions,” but we respectfully disagree. The report
does state that “[f]urther study will be necessary to

18a
determine the best delivery system” for nitrogen gas.
The report also raises the possibility that a gas mask
delivery system could be less efficient than a gas bag
delivery system. But the report’s ultimate conclusion
is that execution by nitrogen-induced hypoxia would
be “simple to administer.” That researchers have yet
to decide which is the best among several feasible
methods of implementation does not definitively
refute Johnson’s allegation that Missouri could
feasibly implement this alternative without undue
delay.
The district court also thought it fatal to
Johnson’s claim that he did not plead facts
“indicating Missouri is willing to perform this type of
execution, which suggests it may not be feasible.” We
cannot accept, however, that a State’s unwillingness
to employ a method that would significantly reduce a
substantial risk of severe pain makes the method
infeasible. Under the Glossip/Baze standard, a State
may be obliged under the Constitution to implement
an alternative method of execution. See Baze, 553
U.S. at 52, 128 S.Ct. 1520. Whether Missouri is
“willing” to implement an alternative method
voluntarily does not determine whether the
alternative is feasible.
The State also contends that Johnson did not
adequately allege that nitrogen gas would
significantly reduce a substantial risk of severe pain.
The State suggests that McGehee v. Hutchinson, 854
F.3d 488 (8th Cir. 2017) (en banc) (per curiam),
forecloses Johnson’s claim. McGehee, however, arose
in a different procedural posture. Several Arkansas
prisoners sought a stay of execution after an
evidentiary proceeding on the ground that Arkansas’s
method of execution on its face violated the Eighth

19a
Amendment. Id. at 490-91. We concluded that the
evidence was insufficient to justify a stay, because
nitrogen hypoxia had “never been used to carry out
an execution” and “[w]ith no track record of
successful use,” it was “not likely to emerge as more
than a ‘slightly or marginally safer alternative’” to
the State’s current method in the ordinary case. Id. at
493 (quoting Glossip, 135 S.Ct. at 2737).
Johnson is not bound by the pleadings or the
evidentiary record in McGehee. He has pleaded an
as-applied claim based on his medical condition, not a
facial challenge to Missouri’s ordinary method. He
claims that nitrogen hypoxia would ameliorate the
risk of severe pain allegedly caused by pentobarbital,
because “the use of lethal gas would not trigger the
uncontrollable seizures and convulsions.” The
pleading is sufficient to state a claim that the
alternative method would significantly reduce a
substantial risk of severe pain for Johnson in his
particular circumstances. Again, whether Johnson
can prove that claim is a different matter that will
arise at a later stage of the proceedings.
III.
The State’s last argument for affirmance is that
Johnson’s complaint is barred by the statute of
limitations. A statute of limitations is an affirmative
defense that the defendant must plead and prove.
But “[a] defendant does not render a complaint
defective by pleading an affirmative defense,” so the
defense ordinarily must be apparent on the face of
the complaint to justify dismissal for failure to state a
claim. Jessie v. Potter, 516 F.3d 709, 713 n.2 (8th Cir.
2008). The district court rejected the State’s position
on the ground that the face of Johnson’s complaint

20a
did not establish that his claim was barred by the
statute of limitations.
In a § 1983 action like this one, the governing
statute of limitations “is that which the State
provides for personal-injury torts.” Wallace v. Kato,
549 U.S. 384, 387, 127 S.Ct. 1091, 166 L.Ed.2d 973
(2007). In Missouri, the period is five years. Mo. Rev.
Stat. § 516.120(4). Although state law dictates the
length of the limitations period, we look to federal
common law to determine when a cause of action
under § 1983 accrues. Wallace, 549 U.S. at 388, 127
S.Ct. 1091. The standard rule is that accrual occurs
“when the plaintiff has a complete and present cause
of action, ... that is, when the plaintiff can file suit
and obtain relief.” Id. (internal quotation marks
omitted) (quoting Bay Area Laundry & Dry Cleaning
Pension Tr. Fund v. Ferbar Corp. of Cal., 522 U.S.
192, 201, 118 S.Ct. 542, 139 L.Ed.2d 553 (1997)). “[A]
plaintiff’s cause of action accrues when he discovers,
or with due diligence should have discovered, the
injury that is the basis of the litigation.” Union Pac.
R.R. Co. v. Beckham, 138 F.3d 325, 330 (8th Cir.
1998); see also Cooey v. Strickland, 479 F.3d 412, 416
(6th Cir. 2007) (applying the common law “discovery
rule”
to
determine
when
a
§
1983
method-of-execution cause of action accrued).
Johnson claims that his unique medical condition
puts him at a substantial risk of suffering severe pain
if he is executed by means of pentobarbital. Johnson’s
cause of action could not have accrued until he
discovered, or with due diligence should have
discovered, that he suffers from the brain defects that
make him vulnerable to seizures. His second
amended complaint alleges that “the brain defect and
the scarring tissue that resulted from the

21a
procedure were not known until an MRI procedure
was conducted in April 2011.” The complaint was
filed within five years of April 2011, so it would be
timely if that is the accrual date.
The State argues that Johnson could have
discovered his condition in 2008 after he underwent
brain surgery. The State posits that “[t]he presence of
scar tissue after a surgery is obvious and a natural
and probable consequence of any surgery.” The
condition of which Johnson complains, however, is
not only scar tissue. He alleges a seizure disorder
that is caused by a confluence of factors in his brain.
Giving Johnson all reasonable inferences at this
stage in the litigation, it is not clear from Johnson’s
pleadings that he could have discovered this
condition through the exercise of reasonable diligence
before his MRI procedure in April 2011. Therefore,
Johnson’s complaint is not subject to dismissal under
Rule 12(b)(6) based on the statute of limitations.
***
For the foregoing reasons, we reverse the district
court’s judgment dismissing Johnson’s second
amended complaint and remand for further
proceedings.

22a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
No. 2:15-CV-4237-DGK
ERNEST L. JOHNSON,
Plaintiff,
v.
GEORGE A. LOMBARDI, et al.,
Defendants.
[Filed: May 1, 2017]
ORDER GRANTING MOTION TO DISMISS
GREG KAYS, Chief Judge
A Missouri state court convicted Plaintiff Ernest
L. Johnson (“Johnson”) of first-degree murder and
sentenced him to death. Johnson has exhausted all
appeals challenging his conviction and the State of
Missouri is now ready to execute him. In this civil
action, he challenges the constitutionality of the
State’s proposed execution protocol as it applies to
him. He alleges that, in light of his brain tumor
and its resulting impairments, he will experience
violent, uncontrollable seizures if the State executes
him with the drug pentobarbital as intended.
Now before the Court is Defendants’ motion to
dismiss (Doc. 42). Because Johnson fails to state a
plausible claim that pentobarbital presents a
substantial risk of severe pain, and that his
alternative method of execution is feasible and
readily implemented, the motion is GRANTED and
this case is DISMISSED WITHOUT PREJUDICE.

23a

Background
On October 22, 2015, less than two weeks before
his scheduled execution, Johnson commenced this
action against Defendants George A. Lombardi,
David Dormire, and Troy Steele, who are all
employees of the Missouri Department of
Corrections. On October 27, 2015, the Court denied
a stay of execution and dismissed the complaint for
failing to state a claim (Doc. 12). Johnson appealed
and moved for a stay of execution. Without
considering whether the Court had properly
dismissed the complaint, the Court of Appeals
denied the stay. Johnson v. Lombardi, 809 F.3d 388
(8th Cir. 2015). The Supreme Court of the United
States granted the stay and ordered the Court of
Appeals to consider the merits of Johnson’s appeal.
Johnson v. Lombardi, 136 S. Ct. 443 (2015). Because
the propriety of dismissing the complaint was not yet
appealable, the Court of Appeals dismissed the
appeal and returned jurisdiction to this Court.
Johnson v. Lombardi, 815 F.3d 451, 452 (8th Cir.
2016). On August 1, 2016, Johnson filed an amended
complaint. The Court dismissed the amended
complaint without prejudice for failing to state a
claim and found the claim was not barred by the
statute of limitations (Doc. 40). Johnson has now
filed a second amended complaint attempting to cure
his prior pleading deficiencies (Doc. 41).
Taking the factual allegations in the Second
Amended Complaint as true and crediting Johnson
with all reasonable inferences, the Court views the
relevant facts as follows. See Zink v. Lombardi, 783
F.3d 1089, 1093 (8th Cir. 2015) (en banc).

24a
A jury found Johnson guilty of murdering three
gas station employees during a robbery in 1994.1
Johnson v. State, 333 S.W.3d 459, 462 (Mo. 2011).
Over the next seventeen years, Johnson’s postconviction challenges made their way through the
state courts and he was sentenced to death three
times. Id.
In 2008, Johnson was diagnosed with a slowgrowing brain tumor called an atypical parasagittal
meningioma. Johnson underwent craniotomy
surgery in August 2008, during which doctors
removed fifteen to twenty percent of his brain tissue
but were unable to remove the entire tumor. After
the surgery, Johnson started having violent,
uncontrollable, and painful seizures of indefinite
length. He takes anti-seizure medications, but they
do not suppress all seizures.
For a few years after the surgery, Johnson knew
only that part of the tumor was still in his brain. A
magnetic resonance imaging (“MRI”) scan in April
2011, showed the surgery caused some scarring of
his brain tissue and left him with a brain defect.
Doctors concluded the scar tissue and brain defect,
together with the tumor remnants, were disrupting
electrical activity in his brain and causing Johnson’s
seizures.
Johnson’s brain health is relevant because he
alleges his condition will expose him to a substantial
and unjustifiable risk of severe pain if the State of
Missouri executes him as planned. The execution
Johnson bludgeoned, stabbed, and shot the victims before
fleeing with money from the store’s safe. A complete account of
the crime is set forth in State v. Johnson, 968 S.W.2d 686, 689–
90 (Mo. 1998).
1

25a
protocol dictates that non-medical personnel inject
him with up to ten grams of pentobarbital, a
barbiturate which depresses the central nervous
system. Second Am. Cmpl. ¶¶ 24-25, 28. Johnson
claims that because of his medical condition,
administering pentobarbital risks inducing an
unusually painful seizure. Id. ¶¶ 2, 34, 51. For
example, the Second Amended Complaint alleges:
Due to the unique and specific medical
condition of Mr. Johnson, there is a
substantial and unjustifiable risk that
Missouri’s lethal injection protocol
currently utilized by the Missouri
Department of Corrections will affect
Mr. Johnson differently than an average
healthy inmate and will cause severe
pain and serious harm to Mr. Johnson.
There is a substantial and unjustifiable
risk that the lethal injection drugs will
trigger uncontrollable and painful
seizures and convulsions due to Mr.
Johnson’s unique brain defect and
condition that were discovered in April
2011. There is a substantial and
unjustifiable risk that the seizures and
convulsions will be severely painful and
cause needless suffering. The current
method of execution is sure or very likely
to cause serious and needless pain in
light of Mr. Johnson’s unique medical
condition.
Id. ¶ 2. The phrase “substantial and unjustifiable
risk” is repeated throughout the pleading. Id. ¶¶ 21, 2
2

“The administration of the lethal injection drug pentobarbital

26a
34, 3 51, 4 54. 5 The Second Amended Complaint also
alleges the current execution protocol is “sure or very
likely to . . . trigger[] uncontrollable and violent
creates a substantial and unjustifiable risk that violent and
uncontrollable seizures could be triggered during the execution
due to the lethal injection drugs’ interaction with the remaining
meningioma, scarring tissue and brain defect. There is a
substantial and unjustifiable risk that such violent and
uncontrollable seizures will result in a severely painful and
prolonged execution and serious harm. The use of the current
lethal injection drugs is sure or very likely to cause serious and
needless suffering and severe pain in light of Mr. Johnson’s
specific and unique medication condition.” Second Am. Cmpl. ¶
21.
3
“The brain defects and pre-existing seizure disorder in Mr.
Johnson create a substantial and unjustifiable risk that the
execution will not proceed as intended in that there is a
substantial and unjustifiable risk that the lethal injection drugs
will trigger violent and uncontrollable seizures that are
extremely painful and will lead to an ineffective and
excruciating execution Mr. Johnson’s seizure threshold is
substantially lower than the general population. Any further

lowering of that threshold by using a seizure promoting
compound like pentobarbital will increase the likelihood of
a seizure with a very high degree of probability.” Second
Am. Cmpl. ¶ 34.

“Based on the condition of Mr. Johnson, which includes his brain
tumor, brain defect and scarring, a substantial risk of serious
harm will occur during his execution as a result of a violent
seizure that is induced by pentobarbital. The use of pentobarbital
during the execution protocol significantly increases the
likelihood that a seizure will occur in Mr. Johnson.” Second Am.
Cmpl. ¶ 51.
5
“[T]he use of the lethal injection drugs used by the Department
of Corrections under its current protocol create a substantial and
unjustifiable risk that Mr. Johnson will suffer a severely painful
execution by the triggering of violent and uncontrollable seizures
and convulsions, which constitutes cruel and unusual
punishment in violation of the Eighth Amendment to the United
States Constitution.” Second Am. Cmpl. ¶ 54.
4

27a
seizures and convulsions.” Id. ¶ 63; see also ¶¶ 2
(alleging “sure or very likely to cause serious and
needless pain in light of Mr. Johnson’s unique
medical condition”), 21 (asserting “sure or very likely
to cause . . . severe pain in light of Mr. Johnson’s
specific and unique medical condition”).
Johnson contends that if he suffers a seizure it
will not be quick, and it will prolong the execution.
Id. ¶ 21. And because the State of Missouri does not
station medical personnel inside the execution
chamber and there is no plan for what to do if the
pentobarbital triggers a seizure, no one will be able
to do anything for Johnson if he suffers a seizure or
if the pentobarbital fails to end his life. Id. ¶ 36.
To support these assertions, Johnson attached an
affidavit from a board-certified anesthesiologist, Dr.
Joel Zivot, M.D. (“Dr. Zivot”). Dr. Zivot opines that
pentobarbital, like another structurally similar
barbiturate, methohexital, is a “seizure-promoting
compound,” and that because Johnson has an
underlying seizure disorder, Missouri’s “execution
protocol will increase the likelihood of a seizure
[during his execution] with a very high degree of
probability.” Aff. in Supp. ¶ 12, 15 (Doc. 41-2)
(emphasis added). Further, since pentobarbital has
an anti-algesic effect—that is, it exaggerates pain—
a pentobarbital induced seizure would be more
painful than any seizure Johnson would typically
experience. Id. ¶ 14. Dr. Zivot concludes that
Johnson “faces a significant medical risk for a
serious seizure as the direct result” of Missouri’s
execution protocol and his neurologic disease. Id. ¶
16 (emphasis added).
Finally, Johnson suggests there is a feasible,

28a
readily implemented alternative method of
execution: the State could execute him by nitrogeninduced hypoxia. Second Am. Cmpl. ¶ 58. Missouri
law already permits execution by lethal gas, Mo.
Rev. Stat. § 546.720.1, and nitrogen, which is used
commonly in welding and cooking, is easy to obtain.
Id. ¶¶ 56, 58. The State could acquire nitrogen, fit a
hood or mask over his head, and then administer the
nitrogen to kill him painlessly. Id. ¶ 58.
The sole count in Johnson’s Second Amended
Complaint charges that by using pentobarbital to
execute him, Defendants will inflict cruel and
unusual punishment, which is prohibited by the
Eighth Amendment as applied to the State of
Missouri by the Fourteenth Amendment and
enforceable through 42 U.S.C. § 1983. He seeks a
permanent injunction against his execution by lethal
injection. Id. ¶ 70.
Standard
Defendants move to dismiss the Second Amended
Complaint under Federal Rule of Civil Procedure
12(b)(6) for failing to state a claim upon which relief
can be granted. When reviewing a complaint under
Rule 12(b)(6), a court takes all factual allegations as
true. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007). The court gives no deference to “formulaic
recitation[s] of the elements of a cause of action” and
“legal conclusion[s] couched as” facts. Id. Thus, a
plaintiff cannot rely on mere “naked assertion[s]” of
wrongdoing, but rather must support his claim with
“further factual enhancement.” Id. at 557.
The court must determine whether those facts
state a “plausible” claim for relief. Id. at 570. “A
claim has facial plausibility when the plaintiff pleads

29a
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009); Twombly, 550 U.S. at 556 (requiring
“enough fact to raise a reasonable expectation that
discovery will reveal evidence of [unlawful activity]”).
In the plausibility evaluation, the court is limited
to a review of the amended complaint and materials
necessarily embraced by the amended complaint
such as exhibits. Meehan v. United Consumers Club
Franchising Corp., 312 F.3d 909, 913 (8th Cir. 2002).
This endeavor is “a context-specific task that
requires the reviewing court to draw on its judicial
experience and common sense.” Iqbal, 556 U.S. at
679. A court should bear in mind that “[t]here is no
requirement for direct evidence; the factual
allegations may be circumstantial.” McDonough v.
Anoka Cty., 799 F.3d 931, 945 (8th Cir. 2015). “The
complaint should be read as a whole, not parsed
piece by piece to determine whether each allegation,
in isolation, is plausible.” Id. at 946 (alteration
removed).
Discussion
Defendants argue the Second Amended
Complaint should be dismissed because it fails to
state a claim and because it is barred by the statute
of limitations.
The Eighth Amendment prohibits the State from
inflicting “cruel and unusual punishments.” U.S.
Const. amend. VIII. A prisoner sentenced to death
may challenge an execution protocol as applied to
him. Bucklew v. Lombardi, 783 F.3d 1120, 1127 (8th
Cir. 2015) (en banc).

30a
To challenge an execution method as “cruel and
unusual,” a prisoner must plead facts supporting two
essential elements: (1) the method is “sure or very
likely to cause serious illness and needless
suffering”; and (2) that a particular alternative
method of execution is “feasible, readily
implemented, and in fact significantly reduces a
substantial risk of severe pain.” Glossip v. Gross, 135
S. Ct. 2726, 2737 (2015) (emphases and alteration
removed).
I.

The Second Amended Complaint fails to
state a claim because it does not establish
the
plausibility
that
pentobarbital
presents a substantial risk of inflicting
severe pain on Johnson.

A prisoner challenging a method of execution
must establish that “the method presents a risk that
is sure or very likely to cause serious illness and
needless suffering, and give rise to sufficiently
imminent dangers.” Glossip, 135 S. Ct. at 2737
(internal quotation marks and citations omitted). To
prevail on this claim “there must be a substantial
risk of serious harm, an objectively intolerable risk
of harm that prevents prison officials from pleading
that they were subjectively blameless for purposes of
the Eighth Amendment.” Id. It is the prisoner’s
burden to establish “that the State’s lethal injection
protocol creates a demonstrated risk of severe pain.”
Id. (restated as “substantial risk of severe pain” at
2740). In the context of the present case, Johnson
bears the burden of presenting facts in his complaint
establishing that the use of pentobarbital is sure or
very likely to cause him to have a seizure, and that
this seizure will be severely painful, thus Missouri’s

31a
execution protocol presents a substantial risk of
inflicting severe pain on him.
In dismissing the First Amended Complaint for
failing to state a claim, the Court found the
complaint deficient because it contained conclusory
allegations and recitations of the legal standard. It
also found the remaining allegations did not
establish: (1) the probability that pentobarbital will
trigger seizures because of Johnson’s brain defects;
(2) a link between pentobarbital and the frequency
of seizures; and (3) the possibility that a seizure
during Johnson’s execution would be the result of his
seizure disorder.
Johnson intersperses the Second Amended
Complaint with conclusory statements that merely
repeat the legal standard by asserting pentobarbital
poses a “substantial and unjustifiable risk” of severe
pain because it is “sure or very likely” to trigger a
seizure. Second Am. Cmpl. ¶¶ 2, 21, 34, 51, 54; Aff.
in Supp. ¶¶ 14, 16. These conclusory statements are
not entitled to an assumption of truth. McDonough,
799 F.3d at 945. Neither has Johnson corrected the
deficiencies in his previous complaint by providing a
sufficient factual basis for the claim that using
pentobarbital on him is “sure or very likely” to
trigger a seizure, creating a “substantial risk” of
causing severe pain.
Johnson relies on Dr. Zivot’s affidavit to establish
a factual basis that administering pentobarbital to
him is “sure or very likely” to cause a seizure. The
affidavit does not do this.
What the affidavit does do is provide plausible
evidence that pentobarbital is a seizure-promoting
compound, that Johnson has a lower threshold for

32a
seizures due to his epilepsy, and that any
pentobarbital induced seizure would be more
painful than usual. This outlines a theory
explaining how pentobarbital could increase
Johnson’s risk of suffering a seizure, and that if
Johnson suffered a pentobarbital induced seizure, it
would be severely painful.
It does not establish—as Glossip requires—that
using pentobarbital is “sure or very likely” to cause
a seizure in him and so inflict unnecessary pain. Dr.
Zivot never uses the words “sure” or “very likely” or
their equivalent in describing the probability that
Johnson will actually suffer a seizure. The closest he
comes is observing that in individuals with preexisting epilepsy, exposure to seizure producing
drugs is “more likely” to produce a seizure. Id. ¶ 12.
Granted, he repeatedly claims there is a
“substantial” risk here, asserting “Mr. Johnson’s
epilepsy creates a unique and substantially
important risk when exposed to anything that
promotes seizures,” and there is “a substantial risk
[that] serious harm will occur during his execution
as a result of a violent seizure that is induced by
Pentobarbital injection.” Aff. in Supp. ¶¶ 12, 14. But
it is unclear exactly what risk he is referring to, the
risk of Johnson suffering a pentobarbital induced
seizure, or the risk that if he suffers a seizure, it will
be very painful? The clearest expression of Dr.
Zivot’s view is in the affidavit’s conclusion when he
states Johnson is at “significant medical risk for a
serious seizure.” Aff. in Supp. ¶¶ 12, 14, 16. While a
“significant” risk is noteworthy, it does not mean the
same thing as “sure or very likely.” A “significant”
risk is not an imminent risk or an objectively
intolerable risk as set forth in Glossip. See McGehee

33a
v. Hutchinson, No. 17-1804, 2017 WL 1404693, at *2
(8th Cir. Apr. 17, 2017), cert. denied, No. 16-8770,
2017 WL 1414915 (Apr. 20, 2017) (finding that “a
significant possibility that the prisoners could show
an ‘objectively intolerable risk’ of severe pain” did
not meet the “rigorous ‘sure or very likely’ standard
of Glossip”).
Accordingly, the Court finds the Second
Amended Complaint does not meet the pleading
requirements as set forth in Glossip.
II.

The Second Amended Complaint fails to
state a claim because it does not establish
Johnson’s alternative method of execution
is feasible and capable of being readily
implemented in Missouri.

Johnson pleads nitrogen-induced hypoxia is
feasible and readily implemented because: (1)
execution by lethal gas is authorized by Missouri
statute; (2) the tools necessary to perform the
execution, such as the nitrogen gas and a hood or
mask, are easily acquired in the open market; (3)
nitrogen can be acquired without the need of a license;
and (4) it does not require a gas chamber or
construction of a facility. Second Am. Cmpl. ¶ 58.
To plead a method of execution claim, a prisoner
must identify an alternative execution protocol that
is “feasible, readily implemented, and in fact
significantly reduces a substantial risk of severe
pain.” 6 Glossip, 135 S. Ct. at 2737. The Eighth
For purposes of this motion, the parties do not dispute Johnson’s
alternative method of execution will substantially reduce the risk
of harm. The only issue in dispute is whether the alternative
method is feasible and readily implemented.

6

34a
Circuit explained this standard stating, “the State
must have access to the alternative and be able to
carry out the alternative relatively easily and
reasonably quickly.” McGehee, 2017 WL 1404693, at
*3.
Attached to and embraced by Johnson’s Second
Amended Complaint is a report on nitrogen-induced
hypoxia (Doc. 41-3). This report actually indicates
nitrogen induced hypoxia is not feasible or capable
of being readily implemented for use in state
executions. The report demonstrates the process
used in a state execution would likely require a more
elaborate mechanism than simply using a hood to
deliver the nitrogen gas. Doc. 41-3 at 10. The report
states using a mask to deliver nitrogen risks
complications, such as the mask not sealing tightly
around the prisoner’s face. Id. at 7. If this occurs,
“oxygen entering into the hood . . . can prolong [the]
time to unconsciousness and death, as well as
increase the possibility of involuntary movements by
the subject.” Id. at 11.
These allegations do not demonstrate nitrogeninduced hypoxia is capable of being readily
implemented: the state would need to consider a
protocol that is more elaborate than merely
purchasing a hood or mask; Missouri would need
time to develop a protocol to address risk of oxygen
entering the hood; and Department of Corrections
personnel would need to be trained on the process.
Equally fatal to this claim, Johnson has not pled
facts indicating Missouri is willing to perform this
type of execution, which suggests it may not be
feasible. C.f. Bucklew v. Lombardi, No. 14-08000CV-W-BP, 2016 WL 6917289, at *5 (W.D. Mo. Jan.

35a
29, 2016) (holding Plaintiff adequately pled
alternative method of execution by lethal gas
because the complaint included comments by the
Missouri Attorney General indicating a willingness
to carry out a lethal gas execution).
Therefore, Johnson has failed to establish that
nitrogen-induced hypoxia is a feasible and readily
implemented alternative method of execution.
III. Johnson’s claim is not barred by the statute
of limitations.
Each time Defendants have moved to dismiss
Johnson’s complaint, including here, they have
raised a statute of limitations argument. Although
the Court could dismiss the amended complaint for
the reasons stated above, the Court will address this
argument because it will likely rise again.
“Bar by a statute of limitation is typically an
affirmative defense, which the defendant must plead
and prove.” Walker v. Barrett, 650 F.3d 1198, 1203
(8th Cir. 2011). Thus, “the possible existence of a
statute of limitations defense is not ordinarily a
ground for Rule 12(b)(6) dismissal unless the
complaint itself establishes the defense.” Id.
“[T]he applicable statute of limitations governing
method-of-execution Eighth Amendment claims” is a
question the Eighth Circuit “has not addressed.”
Bucklew, 783 F.3d at 1128. While the Court does not
have the benefit of Eighth Circuit guidance, it notes
the limitations period for § 1983 lawsuits is
generally the applicable state-law limitations period
for personal-injury torts, Wallace v. Kato, 549 U.S.
384, 387 (2007), which in Missouri is five years, Mo.
Rev. Stat. § 516.120(4). See also Wellons v. Comm’r,

36a
Ga. Dep’t of Corr., 754 F.3d 1260, 1263 (11th Cir.
2014).
The limitations clock in § 1983 cases begins
ticking “when the plaintiff has a complete and
present cause of action,” which is “when the plaintiff
can file suit and obtain relief.” Wallace, 549 U.S. at
388 (internal quotation marks omitted). Applied
here, that time would be either when Johnson
became aware of his brain defect or when the State
first selected a method of execution that presented
Johnson a substantial risk of severe pain.
Defendants argue the State has used lethal
injection since well before Johnson began having
health issues in 2008, so his claim accrued no later
than August 2013, five years after his surgery and
two years before he filed this lawsuit. Defendants
claim their argument is bolstered by Johnson’s
allegations that pentobarbital is a fast-acting
barbiturate and Missouri’s prior method of execution
used a fast-acting barbiturate.
The Second Amended Complaint fails to
establish a statute of limitations defense because: (1)
the facts in the complaint establish Johnson’s claim
was not available to him until 2011; and (2) the
amended complaint does not pinpoint a date the
State began using pentobarbital in its protocol.
The facts giving rise to this Glossip claim rely on
Johnson’s knowledge of his specific brain scarring
that was not known to him until at least 2011 when
he underwent the MRI scan. This scan established
that scarred brain tissue caused Johnson’s violent
and uncontrollable seizures. Because Johnson could
not have been reasonably aware of these injuries,
which form the basis of his complaint, before 2011,

37a
his complaint is not barred by the statute of
limitations.
Conclusion
In view of the foregoing, Defendant’s motion to
dismiss (Doc. 42) is GRANTED. Johnson’s complaint
is DISMISSED WITHOUT PREJUDICE.
IT IS SO ORDERED.
Date: May 1, 2017

/s/ Greg Kays
GREG KAYS, CHIEF JUDGE
UNITED STATES DISTRICT
COURT

